<html>
<title> - VETERANS IN TECH: INNOVATIVE CAREERS FOR ALL GENERATIONS OF VETERANS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



  VETERANS IN TECH: INNOVATIVE CAREERS FOR ALL GENERATIONS OF VETERANS

=======================================================================

                                 HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, MAY 17, 2016

                               __________

                           Serial No. 114-69

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                     
                     
                     
                      

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-180 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>                   
                     
                     
                     
                     
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA RADEWAGEN, American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                     BRAD WENSTRUP, Ohio, Chairman

LEE ZELDIN, New York                 MARK TAKANO, California, Ranking 
AMATA RADEWAGEN, American Samoa          Member
RYAN COSTELLO, Pennsylvania          DINA TITUS, Nevada
MIKE BOST, Illinois                  KATHLEEN RICE, New York
                                     JERRY McNERNEY, California

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                         Tuesday, May 17, 2016

                                                                   Page

Veterans In Tech: Innovative Careers For All Generations of 
  Veterans.......................................................     1

                           OPENING STATEMENTS

Honorable Brad Wenstrup, Chairman................................     1
Honorable Mark Takano, Ranking Member............................     2

                               WITNESSES

Mr. Bernard Bergan, Technical Account Manager, Microsoft.........     3
    Prepared Statement...........................................    22
Mr. Brian Huseman, Vice President, Public Policy, Amazon.........     4
    Prepared Statement...........................................    26
Vice Admiral Joseph Kernan, (U.S. Navy, Ret.), Chairman, NS2 
  Serves.........................................................     6
    Prepared Statement...........................................    28
Mr. Todd Bowers, Director, UberMILITARY, Uber....................     7
    Prepared Statement...........................................    32

                       STATEMENTS FOR THE RECORD

Internet Association.............................................    34
Engine...........................................................    40

 
  VETERANS IN TECH: INNOVATIVE CAREERS FOR ALL GENERATIONS OF VETERANS

                              ----------                              


                         Tuesday, May 17, 2016

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
Room 334, Cannon House Office Building, Hon. Brad Wenstrup 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Wenstrup, Takano, Zeldin, 
Costello, Radewagen, Bost, and McNerney.

          OPENING STATEMENT OF BRAD WENSTRUP, CHAIRMAN

    Mr. Wenstrup. Good afternoon, everyone. The Subcommittee 
will come to order. I want to thank you all for waiting for us, 
for one, but I thank you all for joining us here today for our 
hearing entitled ``Veterans in Tech: Innovative Careers For All 
Generations of Veterans.''
    As more servicemembers continue to transition out of the 
military and into civilian life, it is important that we assist 
them into meaningful careers and not just into jobs. And while 
the unemployment rates among veterans continue to decline or 
remain stagnant, it is vital that we inform our transitioning 
servicemembers and veterans of all ages of the career 
opportunities within all sectors of the economy, especially the 
ever-growing and unique opportunities within the tech sector.
    As startups and innovative businesses continue to inundate 
the economy more and more each day, we need to ensure that 
veterans are made aware of the job opportunities within this 
sector, as well as the sector's need and desire for veteran 
employees. We are highlighting the tech industry today because 
I know that the flexibility these jobs offer, as well as the 
skills needed to be successful in these careers, make veterans 
an obvious fit for these positions and trades.
    Furthermore, as Amazon highlighted in their written 
testimony, this field of work is also an optimal opportunity 
for military spouses to find a career that is flexible and 
portable for the lifestyle of a military spouse. These careers 
offer great opportunities that are much better than the 
temporary jobs that many military spouses are forced to take, 
due to the mobility associated with military service.
    It is obvious that companies like the groups before us here 
today, recognize the benefits of training and employing more 
veterans and the skills that they bring to the table. I 
believe, however, that more needs to be done at the outset, as 
these men and women are first exiting the military to make them 
aware of what the tech space has to offer and their 
professional potential in these unique careers.
    We need to figure out how to connect these individuals to 
companies as well as get them into the necessary training 
programs to cover any skill gaps that may exist before entering 
the tech field. There is obviously a great potential in a 
working partnership between our Nation's veterans and tech 
companies, but we need to better work together to make this 
connection happen as early as possible.
    While it is important that we continue to connect 
transitioning servicemembers to these lucrative tech careers, 
we would be remiss if we didn't also address ways to connect 
older veterans to the opportunities that the tech industry has 
to offer. These veterans bring forth similar experiences and 
skills as many of our younger veterans do, and I hope that we 
can all work together and brainstorm ways to train and place 
veterans of all eras and of all ages into tech jobs.
    It is also important that as we discuss how to better 
recruit and retain veterans in this field, that we also ensure 
that we are not only placing a veteran in a job, but we are 
training them and honing their skills so they are promotable, 
and can truly have a successful career in this ever-growing 
sector. So I look forward to our discussion this afternoon. I 
believe I speak for every Member of this Subcommittee when I 
say that we appreciate everything our four panelists here today 
are doing for the men and women who have served, and your work 
to train, employ, and promote veterans within your companies.
    I will now yield to my colleague, Ranking Member Takano, 
for any opening statement he may have.

        OPENING STATEMENT OF MARK TAKANO, RANKING MEMBER

    Mr. Takano. Thank you, Mr. Chairman, for holding this 
hearing today on how veterans can access careers in the high-
growth tech sector of our economy.
    We know that many veterans are excellent prospects for 
these highly desirable jobs because of the skills and training 
they received in the military. Because tech jobs tend to be 
career jobs, we are here today to understand what the tech 
industry needs and wants in a full-time employee, how tech 
employees find qualified veteran prospects, what they are doing 
to support veterans after providing that pathway in, and what 
role the Federal government should play in making tech sector 
opportunities available to more veterans, particularly veterans 
from the Gulf War and Vietnam War eras.
    I want to welcome the four witnesses this afternoon. I look 
forward to their testimony and the opportunity to ask 
questions, and I really want to thank the Chairman for working 
with the minority in scheduling this hearing. I think it is 
going to be a great hearing this afternoon. Thank you.
    Mr. Wenstrup. Thank you, Mr. Takano, and I agree with you.
    I now want to recognize our first and only panel of 
witnesses today. First, with us today we have Mr. Bernard 
Bergan, a Technical Account Manager for Microsoft; Mr. Brian 
Huseman, Vice President of Public Policy for Amazon; Vice 
Admiral Joseph Kernan, Chairman of NS2 Serves; and Mr. Todd 
Bowers, Director of UberMILITARY.
    Mr. Bergan, I want to thank you for your service in 
uniform, in the United States Army, and let's begin with you. 
You have five minutes for your opening statement.

                  STATEMENT OF BERNARD BERGAN

    Mr. Bergan. Thank you, Chairman Wenstrup, Ranking Member 
Takano, and Members of the Subcommittee. My name is Bernard 
Bergan, I am an Army veteran, a graduate of the Microsoft 
Software and Systems Academy, and currently work at Microsoft 
as a Technical Account Manager.
    I am also an example of how tech companies can make a 
significant impact on veterans by helping them discover 
meaningful career paths as they reenter civilian life. Veterans 
face enormous challenges transitioning into the private sector. 
That is why, two years ago, Microsoft launched the MSSA 
Program, and I was one of the first graduates. Since then we 
have announced that the program is expanding into 12 locations 
around the country, and Microsoft has pledged to train and find 
careers for 5,000 servicemembers in the IT sector over the next 
five years.
    Like many other veterans, I didn't get here on my own. I 
have been fortunate to have some great mentors. When I was 12 
years old, I moved from the United States Virgin Islands with 
my parents and brothers to Virginia, where I attended high 
school and graduated from Old Dominion University with a 
criminal justice degree. I then decided to pursue an 
opportunity in the United States Army. I am proud to say I was 
on active duty from 2008 to 2014, serving all over the world, 
including an 11-month deployment in Afghanistan's Helmand 
province.
    My experience taught me the importance of teamwork and 
deeply instilled the value of selfless service and a commitment 
to excellence. I came home in May of 2013, and it was tough for 
me and my family because I didn't know where my next job would 
be. I was then introduced to the MSSA Program by my commanding 
officer at Joint Base Lewis-McChord, Colonel Charles Hodges. 
Colonel Hodges displayed leadership and took a chance on me. 
The intensive IT skills training paired with a guarantee of a 
job interview with Microsoft made the program my most 
attractive option.
    Working at Microsoft has been incredibly rewarding. Each 
day allows me to interact with passionate individuals who work 
to have a global impact as they innovate around solving 
problems. The teamwork, camaraderie, and expertise I enjoy here 
at Microsoft is similar to my time in the Army, and makes me 
feel more at home than I could ever have imagined.
    The MSSA has also been good for my family. Once I settled 
into my new career, my wife was able to focus on hers. She is 
now headed back to school to pursue her MBA. Looking back, it 
is fair to say it has not been a particularly easy transition 
out of the military. I was uncertain about how I would know I 
was making the right career move. A transition from the 
military is a family affair. While much of my testimony has 
focused on veteran employment, it is also important to 
understand military spouse employment. Spouses make tremendous 
sacrifices, especially when their loved one is deployed. For 
its part, Microsoft recognizes that more must be done to help 
spouses. And to that end, the company will be establishing a 
community-based model of our MSSA that will offer evening 
courses, making them more available to working spouses who may 
want to make a career change.
    In conclusion, I am so proud of the work the Microsoft 
Military Affairs Team is doing to empower veterans like me with 
education and relevant skills training that leads to high-
paying IT careers. It is past time for industry, government, 
and nonprofit leaders to give back to our veterans. I want to 
leave you with three observations. First, this program works. I 
am a testament to that. Second, it works because mentoring has 
proven to be a critical part of the MSSA program. And third, 
the MSSA program is attractive to servicemembers because it 
provides relevant training that leads to meaningful, high-
paying IT careers.
    Thank you again for the opportunity to testify this 
afternoon to provide a voice for those transitioning from the 
military back into civilian life. I look forward to answering 
your questions.

    [The prepared statement of Bernard Bergan appears in the 
Appendix]

    Mr. Wenstrup. Thank you, Mr. Bergan.
    Mr. Huseman, you are now recognized for five minutes.

                   STATEMENT OF BRIAN HUSEMAN

    Mr. Huseman. Thank you, Chairman Wenstrup, and Ranking 
Member Takano, and other Members of the Subcommittee. My name 
is Brian Huseman, and I am Amazon's Vice President of Public 
Policy. Thank you for holding this hearing on this important 
topic.
    I would like to highlight three issues. First, Amazon's 
commitment to hiring veterans. Second, our commitment to 
training veterans once at the company, including our innovative 
Career Choice Program. And finally, our recommendations for 
expanding jobs for veterans in the tech sector.
    First, Amazon is strongly committed to hiring veterans. Our 
mission is to be the world's most customer-centric company. And 
to accomplish this, we are constantly looking for leaders who 
can invent and think big, or have bias for action, and deliver 
results on behalf of our customers. And as you know, these 
principles look very familiar to the men and women who have 
served in the armed forces.
    Amazon actively recruits U.S. military veterans to fill 
roles across the company, from our corporate offices to our 
fulfillment network. Since 2011, we have hired over 10,000 
veterans. And earlier this month, as part of the fifth 
anniversary of the Joining Forces Initiative, we announced that 
we will hire 25,000 additional veterans and military spouses 
over the next five years, the largest pledge of any technology 
company. We also recently pledged to train 10,000 
servicemembers, veterans, and military spouses in cloud 
computing, which offers a path to Amazon Web Services 
Certification, an industry-recognized certification program in 
this high-demand field. This training includes hands-on 
experiences with the Amazon Web Services platform, including 
free access to labs and a wide library of content for learning 
about the cloud.
    We believe this commitment is the smart thing to do for our 
veterans and military spouses, for Amazon, and for our hundreds 
of millions of customers. As a son and grandson of veterans, I 
am excited to be a small part of hiring and training these 
incredible leaders.
    Second, our commitment to the military does not end once 
candidates are hired. Once employed at Amazon, we connect them 
with our internal employee network of veterans that we call the 
Amazon Warriors, which allows them to share experiences and 
receive mentoring and gain exposure to career and development 
opportunities.
    I also want to highlight our innovative Career Choice 
Program, which is something we are very proud of. Veterans and 
military spouses in eligible Amazon roles can enroll in the 
Career Choice Program, where we will prepay 95 percent of 
tuition and fees for courses related to in-demand fields, and 
that is regardless of whether the skills are relevant to a 
career at Amazon. So we exclusively fund education in high-
demand fields as determined by the U.S. Bureau of Labor 
Statistics. And so far, thousands of employees have 
participated in the Career Choice Program, and our first Career 
Choice graduate is now a nurse in Kentucky.
    Finally, we have two principal recommendations we would 
like to offer. First, we recommend that active duty 
servicemembers have the opportunity to take advantage of 
private sector technical training program in fields like cloud 
computing before they depart from service, as they may not have 
had experience with the latest software and systems used by the 
private sector. Also, many separating servicemembers are 
excellent candidates for careers in high tech, even though 
their backgrounds might not be technical. Without technical 
training before separation, they may never explore careers in 
the tech sector.
    Second, we recommend expansion of partnerships between the 
military and the private sector. One such program, 
Camo2Commerce, has been very successful in providing career 
development and jobs to servicemembers transitioning out of the 
Joint Base Lewis-McChord, which is in Amazon's home state of 
Washington. Our Amazon Web services recruiters regularly seek 
out graduates of this training program, and we believe it 
should serve as a model for other military installations and 
communities.
    In conclusion, we are committed to hiring veterans, and 
have pledged to hire an additional 25,000 over the next five 
years. We also have a strong commitment to training our veteran 
employees, and we are excited that some of them might 
participate in our innovative Career Choice education program. 
And we believe that more can be done to provide technical 
training before service separation and to increase partnerships 
with the private sector. Our veteran and military spouse 
employees are a tremendous asset for our company and our 
customers, and we are very excited to see what the next 25,000 
will create over the next few years.
    So thank you for calling this hearing and inviting us to 
testify.

    [The prepared statement of Brian Huseman appears in the 
Appendix]

    Mr. Wenstrup. Well, thank you, Mr. Huseman.
    And Admiral Kernan, thank you for your many years of 
service in the Navy. And you are now recognized for five 
minutes.

            STATEMENT OF VICE ADMIRAL JOSEPH KERNAN

    Vice Admiral Kernan. Chairman Wenstrup, Ranking Member 
Takano, and Members of the Subcommittee, my name is Joseph 
Kernan, I am a retired Navy Vice Admiral. I am currently the 
Senior Vice President of Corporate Development and Marketing at 
SAP National Security Services. It is an honor to be with you 
here today to testify in my other role as Chairman of NS2 
Serves, a nonprofit training and employment program for 
veterans. My commitment to this issue stems from my 36 plus 
years of service in naval, special operations, joint, and 
interagency organizations in combat, during disaster relief, or 
in peaceful conditions, but always serving alongside those that 
we are discussing today.
    I think we would all agree today veterans who choose to 
devote a portion of their lives to protecting and serving our 
Nation deserve opportunities to thrive in the civilian sector. 
They have a wide variety of work-life skills, but transitioning 
to the civilian workforce is often daunting, particularly for 
young, enlisted servicemembers. They do not want a handout, but 
rather an opportunity for a fresh start in their post-military 
lives for themselves and for their families. The information 
technology field is one of many ideally suited to veterans, 
regardless of their occupational specialty while they were 
serving in the military.
    In the Department of Defense, commercial technology is used 
to manage mission planning, human resources, weapons systems, 
operations and maintenance, supply chains, and finance. Most of 
these functions are common to virtually every commercial 
business. However, veterans' character traits, developed at a 
very young age while they are serving, are the extraordinary 
differentiator for new hire considerations in the commercial 
sector. They strive to be leaders. They learn how to work as a 
team, and they understand how foundational that is to achieving 
success in virtually any endeavor. They constantly learned and 
mastered a multitude of cross-functional skills and quickly 
adapted in dynamic environments. Possibly, most notably, is 
their grasp and acceptance of accountability, accountability 
for their decisions and accountability to their organizations, 
their leadership, and their fellow workers.
    About the NS2 service program that I chair. SAP National 
Security Services funded and established this nonprofit 
organization in 2014, specifically to train and find employment 
for veterans in high-tech careers. We as well actively seek 
non-government, commercial partners to scale the program. Our 
program targets enlisted men and women from all military 
services and all sub-specialties. We arm graduates with SAP 
technology certifications and with other transition attributes, 
so that they can compete well for technology support jobs in 
the thousands of companies and government organizations that 
utilize SAP products.
    The NS2 Serves program has many key differentiators. All of 
the details of the program I provided in my written testimony. 
The program is an in-resident, 11-week program. The veterans 
pay nothing for the program. They just need to arrive with the 
will to succeed. It leverages the veterans' penchant for 
teamwork. Participants can and do help each other with 
transition and with academics. The CEO and virtually every 
member of our 400 plus person company is an active mentor in 
this program. Graduates, with their consultant certifications, 
have all been hired into government or commercial jobs with a 
minimum starting salary of $60,000, inclusive of medical and 
retirement benefits. By the end of this week, we will have 
graduated 100 graduates from nearly 20 states, some disabled, 
several with service dogs, at a cost of approximately $15,000 
per student. This is a worthwhile investment for substantive 
career, family, emotional stability, stress relief, self-
confidence, and the potential avoidance of dependence on 
Federal and State support programs.
    A few recommendations. A more robust centralized job 
opportunity Web site like veterans.gov, but easily accessible 
and usable, managed under the strong proactive partnership 
between government and commercial industry, with its utility 
measured by employment statistics across all demographics of 
veterans. The Defense Department should shepherd veterans into 
this site before their separation.
    Investing in veterans. I would advocate our model program. 
Every graduate is in a career-centric job at no financial 
expense to the veteran or to their GI bill benefits. The 
commercial sector can take this task on similarly.
    Job qualifications. For commercial sector H.R. departments, 
veterans should be better valued for their military education, 
their experience, and their work ethic. They remain 
extraordinarily educatable and motivated, they just need the 
opportunity.
    Mr. Chairman, Ranking Member Takano, Members of the 
Subcommittee, I would again like to thank you for the 
opportunity to testify today. Veterans have much more to offer 
this country above that which they have already given. Thank 
you for your continued public service and for what you do for 
veterans. I am happy to answer any questions. Thank you.

    [The prepared statement of Vice Admiral Joseph Kernan 
appears in the Appendix]

    Mr. Wenstrup. Well, thank you very much, Admiral.
    And lastly, Mr. Bowers, I want to thank you for your 
service in the United States Marine Corps, and you are now 
recognized for five minutes.

                    STATEMENT OF TODD BOWERS

    Mr. Bowers. Thank you, sir. Mr. Chairman, Ranking Member, 
and Members of the Committee, thank you so much for inviting me 
here today to talk to you about the UberMILITARY Program and 
our endeavors to support veterans and military families as they 
go through the many transitions, many of which I went through 
myself. It has been many years since I sat before this 
Committee and it is an honor and privilege to be back. I 
actually think I am sitting in the exact same chair, so that is 
exciting as well.
    I would like to take a few moments and share with you why I 
am here today, how I became involved with the UberMILITARY 
program. It was during my second tour in Iraq when I found 
myself on the outskirts of Fallujah and was pinned behind a 
Humvee. That Humvee eventually pulled away and took away my 
cover as a rifle--my rifle scope was hit by a sniper's bullet. 
Needless to say, the marine that drove away did not get a five 
star rating. I really hoped that one would stick a little 
better.
    It was a few months later, though, that I found myself back 
in Washington, D.C. after these incredible experiences 
overseas, and I was preparing to go back to school. As a proud 
community college student, I was taking the next step to be 
able to finish my degree, and I found a window between the time 
that I came home to when classes started. I had to work small 
jobs here and there that didn't have flexible timing, didn't 
have the right sort of work that I was looking for to be able 
to make that transition back into school. I really needed 
something to fill that gap. This time really impacted my life 
greatly. It was a time when I was already dealing with trying 
to transition back, and not having that flexibility and 
mobility with respect to timing for work opportunities impacted 
me greatly.
    Traditionally, veterans during this time end up spending 
their hard-earned savings. They end up going into credit card 
debt. They end up basically sitting back and spending all of 
their hard-earned money to be able to fill this window of time. 
This is what inevitably led me to the UberMILITARY Program. In 
September 2014, Uber announced that we were aiming to partner 
with 50,000 members of the military community to include their 
families. We created this target because we knew the skills, 
the work ethic, and integrity exemplified by our Nation's 
veterans was unmatched. Frankly, we knew this would be good for 
business. This was based on data tracking that we did in cities 
with high veteran populations, similar to San Diego, where we 
knew that compared to their civilian peers, veterans that were 
driving on the platform had longer supply hours and higher 
customer ratings.
    Focusing on veterans and military families was a business 
decision, but more importantly, it was a way to empower this 
community with a flexibility and mobility that they had never 
had before. After just under 18 months of engaging with the 
military community, Uber achieved its goal six weeks ahead of 
schedule. As of this morning, more than 56,000 self-identified 
veterans and military family members have signed up to drive 
with Uber, and over 50 percent of them have taken a trip on the 
platform. All of that work has resulted in an astounding $155 
million worth of earnings since we started tracking this data. 
That is earnings going directly into their pockets, similar to 
my situation, at times when they may need it most.
    So how did we reach this goal? To start, we designated 
engaged with more than 60 UberMILITARY Program leaders from our 
city-based teams, many of which are veterans themselves. These 
individuals led the charge in their respective cities, working 
with local and national organizations, base commanders, and 
community leaders. We partnered with Blue Chip organizations 
that support the military community, such as the Chamber of 
Commerce Hiring our Heroes Program, the Blue Star Families and 
the American Military Families Association, to name a few. We 
also created the UberMILITARY Advisory Board, which was chaired 
by former Secretary of Defense Bob Gates, with the likes of 
General Stanley McChrystal, Admiral Eric Olson, and many others 
that have helped guide us through this program.
    As we look to the future of UberMILITARY, we are setting 
new goals, thanks to all of the work that we have done thus far 
that will impact this community. Our new mission is as follows: 
500 million in earnings to drive our partners who have served 
in the military and their families by 2020; next, increased 
access to reliable transportation in and around military 
communities to reduce alcohol-related incidents on and around 
these communities; finally, make Uber even more rewarding for 
the drivers with military backgrounds.
    I would like to conclude my testimony today on a little bit 
more of a personal note as well. After leaving service, I knew 
that I wanted to do something that would truly make a 
difference in the lives of veterans and their families. I knew 
that by fulfilling this dream, and being able to continue to 
engage with those that I served with, there would be unique 
opportunities that would come up. That unique opportunity is 
the Uber platform. It is something that we have never seen 
before that can support this community in a very different 
manner, and I believe it is having a profound impact on 
veterans and military families. I am proud to say that a 
technology platform of this nature has never economically 
empowered this community in such a manner before, and I am 
excited that this is just the beginning.
    As we continue our mission, I am enthusiastic to go to work 
every day, and provide the opportunities that our veterans and 
military families deserve. I would like to thank you all for 
your time. I look forward to any questions, and please refer to 
my testimony for additional details. Thank you.

    [The prepared statement of Todd Bowers appears in the 
Appendix]

    Mr. Wenstrup. I thank you all for your remarks, and I am 
going to now yield myself five minutes for questions. I do 
appreciate some of the things I heard here today, talking about 
recognizing capabilities and possibilities for our veterans 
beyond their military specialty. And I think that is important 
to recognize, because they bring a lot of talents to the plate 
and can be trained into virtually any field if given the 
opportunity.
    Mr. Bowers, just a quick question for you. Will we be 
seeing a icon on our choices for vehicle and driver to say Uber 
veteran or UberMILITARY at some time in the future?
    Mr. Bowers. So we have actually looked at this endeavor, 
but what I would like to point to is something that we actually 
did on Veterans Day where we allowed our veteran partner 
drivers, riders, everybody who is engaged on the Uber app on 
Veterans Day to understand the sacrifices that these 
individuals have made. We worked with the Joining Forces 
Initiative to raise money to help homeless veterans get to and 
from employment opportunities. We did this by working very 
closely with the National Coalition of Homeless Veterans, to 
identify groups that had transportation issues, and it was a 
huge success. That was a way that we are able to look at the 
technology platform and be able to identify what we can do to 
be able to have an impact on our riders and drivers.
    One of the things we have been exploring is the opportunity 
to allow veterans to, basically, connect with riders and let 
them know that they are a veteran on the front end of the trip. 
This is something that we have been thinking about for some 
time. But what we found that I think is rather unique is--we 
get very caught up in being the digital tool. But it is when 
you get in that car that you end up asking the individual that 
is driving you, ``Hey, how come you drive with Uber?'' And a 
tremendous amount of veterans that drive on the platform love 
that opportunity to engage with their civilian peers, and 
really start to acclimatize back into civilian life, just by 
having candid conversations with individuals behind the wheel.
    So it is something that we are definitely looking at, it is 
something that we think would be rather unique, and I would 
like to go as far as to be able to say what branch of service 
they are in, because you know, no bias, but being a Marine, it 
is a pretty proud thing to be in.
    Mr. Walstrup. Well, I will just answer that with a hooah. 
But, anyway.
    Admiral, NS2 Serves is focusing on enlisted servicemembers. 
What is the reason for that? Is there a distinct advantage, or 
are you trying to create more opportunity for enlisted?
    Vice Admiral Kernan. I think the latter. I mean the, you 
know, the unemployment rate for enlisted men and women across 
all services is higher than everyone else in the service. So I 
think we, you know, as a smaller company, we wanted to focus 
somewhere where we essentially transition from kind of a blue-
collar to a white-collar, so. And again, recognizing the 
qualities that they have and their ability to learn, 
particularly as a team, we thought we would focus on them and 
so that is kind of our initial focus.
    The others that have access to the course, gold star 
spouses are as well acceptable into the course and we 
certainly--we have had, actually, two young junior officers go 
through the program, so we don't cut them out, but they were 
extraordinary cases where they had significant, you know, PTS 
type situations and were looking for something to do, and so 
they are off and on their way in great careers.
    Mr. Wenstrup. Excellent.
    Mr. Bergan, when someone graduates from your academy, what 
type of positions are they qualified to take on?
    Mr. Bergan. Thank you for the question, Mr. Chairman. What 
differentiates the Microsoft Software and Systems Academy is 
our learnings track. When I attended the Microsoft Software and 
Systems Academy, I took the software development learning 
track. So after my 16 weeks, I interviewed with Microsoft 
specifically for a software development job. There is also 
going to be five different learning tracks where you would have 
CRM, Power BI, and some of the other high in-demand roles that 
we are seeing within our company that we will need to fill over 
the next five years.
    Mr. Wenstrup. Thank you. And it sounds like each of you, 
and you may want to comment quickly in the little time we have 
left, are making efforts to not employ veterans, but to retain 
them and promote them up the chain. And we will start with you, 
Mr. Huseman.
    Mr. Huseman. Yes, we think it is important to provide 
career mentorship activities once veterans are hired. Our 
Amazon Warriors Network, internal employee network we think is 
very valuable to that, to provide coaching once they are on 
board. Also, our Career Choice Program, which is something that 
we are very excited about, provides our employees with the 
opportunity to get an education in an in-demand field, and that 
is regardless of whether that is relevant to a career at 
Amazon.
    Mr. Wenstrup. Thank you. If anyone else would care to 
comment on the structure of your programs, I would appreciate 
it real quick.
    Vice Admiral Kernan. Yeah, I think creating, you know, just 
creating the opportunity for them to get in the works--I don't 
worry about young men and women veterans as far as competing 
with everyone else. They will do extraordinarily well. They 
have that penchant as well to like to win and try to 
overacheive. And so thus far our program has only been in place 
for two years now, but the feedback from employers is 
extraordinary. Every single one of them have been very, very 
positive. They will work their way up and its career 
opportunities for the rest of their lives.
    Mr. Wenstrup. Mr. Bergan?
    Mr. Bergan. And if I can speak to that really quickly, Mr. 
Chairman. I have only been with Microsoft for two years and I 
have been promoted twice since getting there. The continued 
mentorship and support of the Microsoft military community 
coupled with just our career training and advancement programs 
within the company is something I just really took advantage of 
and tested. And it has proven to be a very valuable opportunity 
and it is one of our transition stories that we really try to 
champion to veterans looking for the same opportunities.
    Mr. Wenstrup. I now recognize the Ranking Member for any 
questions he may have.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Bowers, thank you 
for your service and your continued commitment to helping 
veterans, and to find an easier way than you had going to 
school and supporting yourself. I want to ask you one question. 
Do you have any information on Uber use among veterans 
attempting to get to a VA facility for an appointment?
    Mr. Bowers. This is something that we have been discussing 
quite a bit to be able to understand how we could help the VA 
solve some of their transportation issues. So I would love to 
be able to follow-up with you with some more detail. I don't 
have it directly in front of me, but we have been looking at 
veterans who have been using getting to and from VA facilities. 
We are able to do something that is rather unique where we can 
actually geo tag around VA facilities and identify where 
veterans may be getting dropped off.
    This is something that we think would be incredibly useful. 
And we have been in discussions with the VA about how we can 
possibly pilot a program specifically that would help veterans 
get to and from their appointments. In MilCon/VA there is 
actually some language that is put in there that actually gives 
the VA the authorization to be able to pilot some of these 
programs with us.
    Mr. Takano. Well, great. As you know it has been a big 
issue with our--
    Mr. Bowers. Yes, sir.
    Mr. Takano [continued]. --health appointments. Mr. Bernard, 
thank you for your service as well, and especially for your 11-
month serving in Helmand Province. What a story that is. You 
mentioned that some graduates go on to school rather than go 
straight on to a job after the 16-month training you have with 
Microsoft. I assume this is where GI Bill benefits come into 
play; is that true?
    Mr. Bergan. Thank you for that question. For some 
servicemen and women after they complete their 16 weeks, we do 
earn credit hours. And for them going on to university is the 
best option for them and their families. So we have seen that.
    Mr. Takano. Okay. And to your knowledge are GI Bill 
benefits being used during MSSA training for any purpose, like 
obtaining certifications?
    Mr. Bergan. When I went through--I can only speak for my 
experience. When I went through I used a bit of my GI Bill 
benefits as a part of the training program. And what I saw that 
was an investment in me and my family and our future.
    Mr. Takano. So you were able to use your GI Bill benefits 
even though you hadn't separated yet from the military?
    Mr. Bergan. That is correct.
    Mr. Takano. Okay. At some point I would like to understand 
more about that. I think the Committee should look into that. I 
am also interested in your comment that the skills you acquired 
in the Microsoft Software and Systems Academy, the MSSA 
program, they were not Microsoft specific, but rather industry-
recognized credentials that would allow you portability. Can 
you expand on this issue some and give us an idea of what 
skills are involved that you learned?
    Mr. Bergan. Thank you again for that question. One thing I 
really enjoyed about the Academy when I attended was that you 
had learning tracks. So I was really interested in software 
development, app development and developing for the cloud. And 
that is agnostic to any platform. Once you have those skills in 
the technology sector, you can take them anywhere.
    And each instructor was geared to teaching you how to do 
this not specifically to a platform. One of the benefits of our 
mentorship base program was, I got to actually work with 
software engineers at Microsoft who would show me what they do 
day to day on the job, which helped me really dial into what I 
needed to accomplish.
    Mr. Takano. Well, that is wonderful. Why would Microsoft 
fund an IT school that feeds other company's talent pipelines? 
Why would they do that?
    Mr. Bowers. You know, that just touches me really 
personally, because, you know, when I first heard about this 
program I thought it was too good to be true. And here I am. 
You know, when I took it home to my wife she didn't believe me 
either. And ultimately the Microsoft Military Affairs 
Department, when they sat with me initially, they said, 
``Bernard, this is our investment in the veteran's community. 
We know that you guys are sharp. We know that you are 
hardworking, you are focused, you are willing to do this. And 
we are willing to take a chance investing in you.''
    Mr. Takano. Well, do graduates actually get jobs with 
Microsoft's competitors?
    Mr. Bergan. Absolutely.
    Mr. Takano. Wow.
    Mr. Bergan. Absolutely.
    Mr. Takano. What do you think is the major reason you 
succeeded at Microsoft after graduating from the MSSA?
    Mr. Bergan. I would say, as everyone spoke to up here, that 
ongoing mentorship is very unique. And our Microsoft military 
veterans, we really just pool around each other and just 
support each other's transition goals and our career plans.
    Mr. Takano. Well, you mentioned the high level of support 
that you got in Microsoft's Academy in soft skills, like 
creating a resume and being coached on interviewing. You say 
that TAP isn't as helpful in these areas because commanding 
officers need their troops to be on duty until their last day. 
Do you feel this is a widespread problem? Is it getting better 
or worse in your opinion?
    Mr. Bergan. That's a very good question. And I can only 
speak to my experience. In those last few months on active duty 
you are in a whirlwind of things that must be done and that is 
department mandated, TAP being one of those things. Where TAP 
was very helpful in some ways, in my experience it didn't 
provide me a clear path to what I was going to do next. And 
that's where the MSSA filled that gap with a clear path of what 
I was going to be doing next.
    Mr. Takano. With the Chairman's indulgence, may I ask one 
more questions, sir? I know that there are pilot programs 
planned to offer courses in the evening so spouses can attend. 
Are MSSA courses offered to spouses now?
    Mr. Bergan. At the moment those are plans that we are 
working with Members of Congress and even with the different 
districts to figure out how best to implement. And we would 
love to follow-up with more details on that.
    Mr. Takano. Great, thank you. I yield back, Mr. Chairman. 
Thank you for allowing me that extra time.
    Mr. Wenstrup. Mr. Costello, you are recognized for five 
minutes.
    Mr. Costello. I can just pick up where Mr. Takano left off. 
Can you just describe, Mr. Bergan, the role that your CO played 
and also how important the referral from your CO was in his 
awareness with the MSSA program?
    Mr. Bergan. Thank you, Congressman, for that question. For 
every commanding officer, and the Admiral will speak to that, 
giving up a body is a very difficult decision. So to have 
Colonel Hodges' buy-in and belief in myself and the other 22 
men and women who attended cohort 1 of this program was losing 
some of his best servicemen and women, but he saw the 
importance of making sure our exit out of the military was well 
planned, just as our entry into the military was. So without 
that colonel's buy-in--and that would be one of my 
recommendations, just supporting our senior leaders to make 
those decisions from base to base on how they assist with their 
servicemen and women transitioning from the military.
    Mr. Costello. Right. You also mentioned something else and 
I am going to start with Mr. Bowers, whom I want to thank again 
for taking the time to come meet with me in my office last 
week. And the question will be directed to all four of you. I 
thought you really hit on something talking about how important 
it is for the working spouse to feel that whatever program you 
are in, whatever employer that you are with, that it is in a 
location and that from a work/life balance, there is also 
opportunity for what your spouse may be pursuing or where they 
are working.
    Just describe for me in general terms or be as specific as 
you would like on what the winning formula is for these types 
of programs and in the companies that you work for, so that 
when we speak to other companies, you know, our Members, all of 
us have companies come in, ``We want to be helpful to veterans. 
We have a veterans set aside program for this or we help them 
in this way or provide opportunity here.'' Share with me, if 
you could, the importance that providing that sort of 
opportunity or accommodating, if you will, the spouse and the 
role that it plays in how fulfilled you feel with the company 
that you are at given that variable.
    Mr. Bowers. So I can speak to the uniqueness that Uber 
brings to the table with respect to the flexibility and 
mobility for military spouses. And say that it was about a year 
ago that we launched the UberMILITARY Families Coalition. And 
this was a partnership with four organizations: the Chamber of 
Commerce Hiring our Heroes, Blue Star Families, National 
Military Families Association, and the American Military 
Partners Association.
    This was borne out of what we discovered, that many 
military spouses were leaning towards driving with Uber as an 
opportunity, because the average military family moves eight 
times over a 20-year career. Never before has there been an 
opportunity for folks to be able to go into a new town and be 
able to have that flexibility and mobility, which is driving 
with Uber.
    Additionally, military spouses and families as a whole deal 
with a tremendous amount during deployments as well. So spouses 
love the flexibility and mobility about being able to drop the 
kids off at daycare, or whatever the case may be, while their 
loved one is deployed. This was very surprising to us. So we 
are going to continue to focus on military families on and 
around military installations to make sure that they have this 
opportunity available to them. We are going to continue our 
partnerships to make sure that we are getting the word out to 
folks that this is available.
    Really it is at a unique time right now, as we are seeing 
operational tempo and the number of deployments going down, but 
we are also seeing the surgence that military families want to 
be employed. They want to be a part of something. They want to 
be able to do something for their communities. And the Uber 
platform seems to be something that they are very interested 
in. So thank you for your question.
    Mr. Huseman. And, Congressman, military spouses are very 
valuable to Amazon. They have to deal with flexibility and 
constant change, and those skills do prove valuable to a 
company like Amazon that is fast changing. We have what we call 
virtual contact centers, which our customer support specialists 
that can work from home. And those jobs are very well suited to 
military spouses.
    We also make a focus on providing quality jobs for military 
spouses. I think one great example is Gen Harrison-Doss, who 
she leads a team of recruiters based in Seattle from her home 
in Abilene, Texas where she is stationed with her husband. And 
she has actually been promoted in the company. And so I think 
the military spouses bring great skills and we are very proud 
to have them and to continue to hire them.
    Vice Admiral Kernan. Probably one of the big advantages of 
the program that I am involved is SAP software is just 
prolific, and I think the numbers are over nearly 75 percent of 
all the Fortune 4,000 companies have SAP software. We usually 
take one or two, hire one or two, SAP North America hires a 
couple, but most of them go to companies all over--that are 
anywhere. So I mean, the global ecosystem of SAP who use their 
enterprise resource planning software or supply chain logistic, 
virtually every company has that. So that just--in my mind that 
just creates an extraordinary ecosystem of jobs that veterans 
can go work at wherever they are.
    The other thing, and certainly in technical, you know, 
virtual, working virtually is very common. I personally do it, 
as my wife rightly deserves, she gets 51 percent of the vote of 
where I live after our 27 moves. And so I think the technology 
community and the ability to work virtually, and in our case, 
candidly, I am somewhat agnostic to where the veterans find 
jobs. I don't really care. I just want them to get good viable 
work where they can take care of their families and their 
families have opportunities.
    Our hope is--my hope personally is that our program is--we 
can expand it and build it that spouses are as well available 
to the course. At this point, in its kind of youth infant 
stages, you know, we are just focusing on those enlisted men 
and women that are veterans. But creating the ecosystem and the 
opportunity, whether they end up in SAP, working there, I don't 
know. I suspect like every other person that leaves the 
military, 50 percent end up in another job after a year. I 
think that probably will be the case. But they will be ready 
for virtually any job I think based on their helping them with 
their transition.
    Mr. Wenstrup. Mr. McNerney, you are now recognized for five 
minutes.
    Mr. McNerney. I want to thank the Chairman. And I really 
thank the witnesses for your service and for your testimony 
today. It is a real bright spot in what seems sometimes can be 
a treacherous Committee assignment. But what I want to say is, 
Mr. Huseman, I want to acknowledge your 25,000 veterans goal. 
It is very good. How much training does it take, say, to get 
somebody that has no prior experience in the cloud to work on 
cloud activities?
    Mr. Huseman. In addition to our pledge to hire 25,000 
veterans and military spouses, we have also pledged to train 
10,000 servicemembers and veterans and military spouses in 
Amazon Web Services Certification. And so that is an industry-
recognized certification in cloud computing. And many companies 
either prefer or require that you have this Amazon Web Services 
Certification. So companies like Netflix and GE and Adobe 
either prefer or require that. That commitment is valued at 
over $7 million. So we think in addition to hiring veterans, 
training them in cloud computing is also something we are very 
proud of.
    Mr. McNerney. Well, what do you think the retention is for 
veterans that have been through the program? In fact, you all 
might want to take an answer at that. Well, retention seems to 
be a problem with veterans in the first job or two. Do these 
tech opportunities look different in that regard?
    Mr. Huseman. Well, definitely I think building an internal 
support network is very important to make sure that once they 
are at the company that they have mentorship and career 
development opportunities. That is something that we have tried 
to focus on and make sure that we provide opportunities for 
employees to grown within the company.
    Mr. Bowers. I would just add that, you know, driving on the 
Uber platform is rather unique, because we are one of the few 
that are--we, of course, want people on the platform, but we 
aren't too focused on retention. If someone comes and drives on 
our platform and then ends up dropping off, it means they may 
have gone back to school, they may have taken advantage of an 
additional opportunity. So we see our numbers go up and down. A 
good example being our numbers right now, which are 56,000 
folks who have signed up on the platform, half of those have 
taken a first trip. So that means there are many folks that are 
on the platform who haven't actually driven with Uber. But it 
is always there. It is ready for them should they need it at 
some point.
    So we have kind of seen those numbers go up and down. But I 
will say compared to their civilian peers, veterans seem to 
have a much higher conversion rate than their civilian peers, 
which for us is a way to identify that this is a type of model 
that many veterans and military families really needed.
    Recently the number that you mentioned, I believe other 
panelist mentioned was that veterans are leaving their first 
job out of the military after one year, it is like upwards of 
50 percent I believe. The Institute of Veterans and Military 
Families just came out with this number not too long ago. We 
are often wondering if that is the franticness of veterans as 
they are getting out of the military to take the first job that 
comes their way. And it is programs such as these that my 
panelists are discussing that are critical to make sure that 
veterans are getting into these jobs where they can leverage 
their skill sets. So we are hoping to be able to, A, act as a 
buffer for folks who may be taking part in these programs, and 
then additionally make sure that their skill sets are being 
leveraged so we can get that 50 percent number down.
    Mr. McNerney. Good.
    Mr. Bergan. And I would love to step in here, Congressman. 
And I think, you know, me personally seeing firsthand and going 
through the MSSA program, that is one of the things that really 
stood out. When I sat with members of the Microsoft military 
community who were sharing what the program would ultimately 
be, they envisioned a career. And that is what really got me in 
that first cohort and many of my peers who went through with 
me. We envisioned growing with the company the same way we grew 
with the military. And to my testimony it has been that way for 
me.
    Mr. McNerney. So as a Committee, I mean we have a limited 
amount of power to help you out there. But maybe there are 
legislative tools that we could use that would help. If you 
have any of them I would like to hear them, or if you don't 
have them on your mind, but you would like to forward those to 
me, it would be very helpful to our work here. Go ahead.
    Mr. Huseman. You want me to take that? We have two 
principal recommendations. One is that servicemembers receive 
technical training before separation from service. When they 
leave the service we want them to have careers and not just 
jobs, technical training before separation. And even for those 
that aren't in technical fields, they may have an aptitude for 
that. And so we would encourage that.
    The second thing is that we would encourage greater 
partnerships between the private sector and the military. We 
would encourage you to take a look at the Camo2Commerce 
Program, which is out of the Joint Base Lewis-McChord in 
Washington State. We have had great success with that program. 
For example, servicemembers who have participated in that 
program, they have received jobs offers from us at three times 
the rate that servicemembers who haven't participated in the 
program.
    So it provides servicemembers with very valuable skills and 
we are--Amazon Web Services recruiters very much seek out those 
participants. I think that is one example of a great 
partnership between the private sector and the military, and I 
would encourage looking at the rates for that.
    Mr. McNerney. Thank you. Chairman?
    Vice Admiral Kernan. I think at the same time some are not 
going to have that opportunity to get technology training. But 
I think it is important that if any possibility is there, then 
they should. But as been already mentioned, some people don't 
have the time before they get out. But I do think someone 
alluded to the fact, hey, the Transition Assistance Program is 
not effective at beginning the transition of men and women in 
the service into the private sector. They need to talk about 
getting them into these Web sites and getting them going, you 
know, in the end of their career so they can in fact connect 
with commercial organizations, because most of them won't have 
the time and they don't know--if they get into that gap, if 
they leave and have no help before they leave the service, they 
need that help about jobs, not writing resumes, but in fact 
opportunities at jobs. And there are companies out there that 
necessarily do that. And so I think that is an important piece.
    This is a government commercial--this is a commercial 
responsibility in my mind. It should not be necessarily a 
government responsibility to have to--the commercial industry 
is there, they are the benefactors of the veterans when they 
get out of the military and serve in their organizations. We 
just have to convince them of that and make them aware of it. 
And I think the program will go a long way.
    Mr. Wenstrup. Mr. Bost, you are now recognized for five 
minutes.
    Mr. Bost. Thank you, Mr. Chairman. And I would really like 
to--well, first off, let me say thank you not only for those of 
you that served, but also thank you for providing this service. 
But I want to make sure, and I know we have touched on it a 
little bit, but there were two things that were mentioned. You 
can expand on those or not. But actual barriers that are 
blocking the opportunity for any of veterans coming out. I know 
one was mentioned, the Transition Assistance.
    I was a radar repairman, okay. I worked up until the very 
last day that I separated. And trying to then all of a sudden 
change to think--I was lucky enough that I was going into a 
family business. I didn't have to be trained in that. I went 
home and went into the family business. But what other barriers 
are out there that we can actually do to help you continue to 
do what you are doing and make sure that our veterans are 
employed?
    Vice Admiral Kernan. Well, I just, you know, I think the 
model I think we lean on the veterans' penchant for learning 
and achieving and winning and succeeding and they want to do 
that.
    So our program, there is marine infantry, army infantry, 
truck drivers, mechanics, all types of people. And we give them 
a test to see if they have a level of aptitude in software. And 
we fudge it a little bit to get them in there. But the fact is, 
when they all work together as a team, and you would be 
extraordinarily impressed with the diversity of the group of 
people, all services are represented and every class, men and 
women.
    First they succeed together and they begin the transition 
together, you know, when they are moving out. And so they have 
a penchant to learn that. I am a knuckle dragging frogman. I 
had no understanding at all of technology when I got out. But I 
am somewhat educatable and I am leaning into this thing. And it 
is extraordinary to see the men and women and listen to men and 
women who have never done anything technology wise, albeit this 
generation is very savvy at technology. They picked it up, they 
learned it. They do it in the military all the time. And we 
have all experienced where you are into something that you are 
clueless of, but you learn it, you pick it up and you run with 
it.
    So I don't think we cancel anybody out for moving into this 
opportunity. I just, you know, my stress is the, you know, 
first in the veterans, you know the dot org organizations, it 
just needs to be easy to use for a veteran. And community and 
companies have to partner with it so that they can have an easy 
time of going into it, finding where they--getting their 
resumes in there, finding someone to talk to. They need to talk 
to people, because they don't know how to transition very well. 
So however you can advocate for that, you know, whether it is 
the veteran's dot org gov site that is more usable, more user 
friendly.
    And companies say they want to help, and so they should 
help. And they can easily do this I think just by investing a 
little bit and don't--it doesn't matter that an infantry guy, 
don't think an infantry guy can't roll in there and be a 
technology wizard. They make up for that in a lot of other 
qualities and they learn it very fast.
    Mr. Huseman. Congressman, I would also encourage the 
Subcommittee and DoD to look at the utilization rates for this 
program and how successful they are. I think the Camo2Commerce 
Program at Joint Base Lewis-McChord, we think, would be a 
valuable case study. I think figuring out how many 
servicemembers participate in the program, what jobs that they 
get after they leave service, are those jobs paying more than 
those in similar specialties who did not participate in those 
programs? We think that looking at that data and seeing what 
works and building upon what does work would be very important.
    Mr. Bowers. And if I could just add real quickly on the TAP 
component. As someone that has gone through TAP multiple times 
through my many deployments with the Marine Corps, I have to 
say it always felt like death by a thousand links. It is 
incredibly overwhelming for veterans to know what opportunities 
are out there and what tools they can leverage to be able to 
make that transition. And as has been mentioned by my 
colleagues, it is a very difficult time, very stressful time, 
whether it be coming back from a combat deployment as a 
reservist, to an Active duty member leaving the military after 
20 years.
    I would also ask the Committee to put some thought into 
something that we have realized is sort of a tangible benefit 
with respect to a platform such as Uber, is that veterans are 
able to continue to serve fellow veterans. And I speak with our 
partner drivers on a regular basis and hear that they want to 
be able to do that.
    And something that we have discovered is on and around 
military communities, it is often difficult for partner drivers 
to have access on and off military installations. This is 
something that we are looking at as a way to reduce DUIs on and 
around military installations. We have met with multiple base 
commanders who think this would be a unique model to be able to 
look at. And we currently have some language as is being 
reviewed right now, where we would have the Department of 
Defense come up with these rules.
    This came about because so many veterans live on and around 
military installations that his piqued our interest that our 
partner drivers came back and said, ``Look, you know, I don't 
like the feeling I get when folks don't know that there is a 
tool available to keep them off the roads.'' You might be aware 
a lot of military bases you drive right outside and there is 
car dealerships all over the place. The reason for that is 
because there is a tremendous amount of--there is a lack of 
transportation options on these installations, which ultimately 
leads to servicemen and women, their families being put in a 
position that is a little difficult. And that is something that 
we believe we could alleviate.
    Mr. Bost. Thank you.
    Mr. Wenstrup. Ms. Radawagen, you are now recognized for 
five minutes.
    Ms. Radawagen. Thank you, Mr. Chairman. I too would like to 
welcome the witnesses. Thank you for appearing today and thank 
you for your service. My question here is for the entire panel. 
Back in my home district in American Samoa 10 percent of our 
entire population is military veterans. My question is, what 
are your companies doing to ensure that our veterans who live 
in the United States Territories are being included in these 
opportunities? Could we start with Mr. Bergan?
    Mr. Bergan. Congresswoman, thank you for that question. One 
thing I would like to start with is being from the U.S. Virgin 
Islands I clearly understand that perspective. Because if I 
found myself going back to Virginia and then back to the United 
States Virgin Islands, having an opportunity like this could 
possibly miss me.
    What I also want to highlight is Microsoft looking at the 
community-based model of the MSSA. And as I mentioned before we 
are going to follow-up with your offices to just drill down in 
how we get to roll that out to more places. That way our MSSA 
program isn't limited to the installations that it is currently 
on and it is serving our community at large.
    Ms. Radawagen. Thank you.
    Mr. Huseman. Yes, Congresswoman. Our hiring pledge and our 
training pledge to train servicemembers and veterans and 
military spouses in Amazon Web Services Certification is 
definitely open and welcome to everyone, including those in the 
Territories and American Samoa. We would love to come and speak 
with your more about that and how we can get your constituents 
involved in these training programs.
    And I would also note that we have a number of small 
sellers who sell on the Amazon platform, including from 
American Samoa. And that is a great way, if you have a product 
or if you have an idea, to reach out to consumers and our 
customers all across the world selling via e-commerce.
    Ms. Radawagen. Thank you. Admiral Kernan?
    Vice Admiral Kernan. Yes. I mean our program, again, it is 
only two years in the making. And again, this Friday is our 
graduation of 22 more veterans, which puts us to 100. And we 
have got right around 20 states represented. We pay virtually 
for everything and that includes travel. The commitment is a 
movement for an 11-week course that we run actually here in 
Leesburg, Virginia. So the course is there. We actually have to 
fly everybody in anyway for it. They live there, they breathe 
there. We give them a stipend while they are there. And when 
they graduate they have a certification and then we can 
leverage the ecosystem that I discussed earlier.
    So it is open virtually to anybody. It is still kind of 
new. So proliferating that information it is a little 
incredulous to a lot of people. ``You mean you guys pay for 
everything on this thing?'' Well, the answer is yes, we do. It 
is just--it is one model. There are lots of great models to do 
this. But again, I am very focused in the selection process to 
make sure there is diversity in terms of geography, ethnicity, 
the states that they come from. It is completely open to 
everybody anywhere and we take care of the movement of people 
to and from the course.
    Ms. Radawagen. Mr. Bowers?
    Mr. Bowers. Yes, ma'am, thank you for the question. And I 
would highlight if I could real quickly how young Uber is as a 
company. We have really only been around for about five years. 
And the product that our UberMILITARY program has really grown 
off of is Uber X, which is just about three years old. In that 
time, we have been able to expand to 189 cities. And we are 
going to continue to grown and reach out as far as we can and 
specifically to help veterans and military families. So I would 
love to be able to follow-up with you with respect to what we 
might be able to do in Guam specifically for vets that are 
there.
    Ms. Radawagen. Thank you, Mr. Chairman. I yield back.
    Mr. Wenstrup. Well, if there are no further questions, I 
want to thank you all for your testimony today as well as your 
thoughtful responses to our questions. I look forward to 
working together to not only connect our transitioning 
servicemembers to these opportunities at an earlier stage, but 
also recruiting older veterans and spouses and training them 
for these jobs. And I believe we all understand the positive 
assets that veterans bring to the table and to the civilian 
economy in every aspect. And I believe the tech space is a 
wonderful fit for many of the men and women who have served.
    Admiral, I think it has probably been quite a while since 
your knuckles hit the ground I have to say. That would surprise 
me. But before we close, I do ask unanimous consent that the 
statements submitted for the record from the Internet 
Association and Engine be included in today's hearing record. 
Hearing no objection, so ordered. I want to thank my colleagues 
for being here. And finally, I ask unanimous consent that all 
Members have five legislative days in which to revise and 
extend their remarks and include any extraneous material on 
today's hearing. Without objection, so ordered. This hearing is 
now adjourned.

    [Whereupon, at 2:24 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

                  Prepared Statement of Bernard Bergan
    Thank you Chairman Wenstrup, Ranking Member Takano, and Members of 
the Economic Opportunity Subcommittee of the House Veteran Affairs 
Committee.
    My name is Bernard Bergan. I am an Army veteran and a graduate of 
the Microsoft Software and Systems Academy (MSSA). I am also an example 
of how tech companies, through public/private partnerships, can make a 
significant impact on veterans by helping them discover meaningful 
career paths as they re-enter civilian life.
    It is an honor to appear before the Subcommittee this afternoon to 
share how Microsoft has made a life-altering investment in my career 
and the careers of hundreds of U.S. military veterans around the 
country. And how after three tours of duty in Afghanistan I was able to 
put these skills to use at Microsoft.
    Two years ago, Microsoft testified before the House Veterans' 
Affairs Committee to discuss how the private sector, and in particular 
the tech industry, could play a more hands-on role in helping our 
returning service members obtain the education, skills and industry-
recognized certifications they need to successfully transition into 
civilian life with high paying careers in IT/STEM related occupations. 
The company had just launched the MSSA program and I was one of the 
first graduates. Since then I have found a home at Microsoft and the 
program is expanding into 12 locations around the country over the next 
year.
    While that is certainly progress, I know from conversations with my 
fellow veterans that we still face enormous challenges in successfully 
transitioning into civilian life. Those conversations also tell me 
there is a real hunger among my former army colleagues for these type 
of skills building programs. Those of us in the private sector must 
provide more service members and veterans access to opportunities that 
will change the trajectory of their lives, like Microsoft did with me.
    And I am confident that there will be many, many other graduates 
like me given the company's recent expansion announcement, a clear sign 
that Microsoft is committed to training and employing veterans for 
years to come. Microsoft's goal is to train and find IT jobs for 5,000 
service members over the next five years.

My Story

    I was born in the U.S. Virgin Islands. When I was twelve years old 
I moved with my parents and four brothers to Virginia where I attended 
high school and graduated from Old Dominion University with a criminal 
justice degree. I then decided to pursue an opportunity in the United 
States Army. I am proud to say I was on active duty from 2008 to 2014, 
serving all over the world, including an eleven-month deployment in 
Afghanistan's Helmand Province. My experience taught me the importance 
of teamwork, and deeply instilled the value of selfless service and a 
commitment to excellence.
    In May 2013, after my final deployment, I returned to the United 
States to prepare for my transition from the Army. This was a time of 
uncertainty and anxiety. While there might have been opportunities, I 
could not see a clear path, which was frustrating.
    Then I was introduced to the MSSA program by my commanding officer 
at JBLM, Colonel Charles Hodges. He displayed real leadership and took 
a chance on us; without his ongoing support, I would not be sitting 
before you today. The intensive IT skills training, paired with a 
guarantee of a job interview with Microsoft made the program my most 
attractive option.
    The Microsoft Software and Systems Academy provided me with 16 
weeks of training on the technical roles I was interested in exploring. 
During those four months, I realized that Microsoft was fully committed 
to helping me build the type of skills that would make me a valuable 
employee. During my time in MSSA, I met members of their Microsoft 
Military community who offered mentorship and support every step of the 
way. When I completed the MSSA program, I interviewed with Microsoft 
and accepted a position as a Software Developer.
    Working at Microsoft has been an incredibly rewarding experience. 
Each day allows me to be around passionate individuals who work to have 
a global impact as they innovate around solving problems. The teamwork, 
camaraderie, and expertise I enjoy at Microsoft is similar to my time 
in the Army, and makes me feel more at home than I ever could have 
imagined when I first began the process of transitioning out of the 
Army.
    The teamwork and camaraderie are just two of the many qualities of 
private sector life that are similar to what I enjoyed in the military. 
Others include the ability to grow. Just like in the military, I have 
the opportunity to earn promotions. In my case, I am especially 
grateful that my hard work has enabled me to be promoted twice in the 
two years I have been at Microsoft.
    In addition to Microsoft being a good transition for me, it's also 
been a good one for my family. My wife has been able to refocus on her 
career in dental hygiene and has accepted a position with Washington 
State's Department of Health. She is also heading back to school to 
pursue her MBA. This would not have been possible had I not been able 
to make such a smooth transition into the civilian workforce and land 
my career at Microsoft.
    Looking back, it is fair to say that it has not been particularly 
easy to transition out of the military. I was uncertain about how I 
would know if I was making the right career move. I wondered how I was 
going to provide for my family. I had no idea where we were going to 
live. With all of this running through my head as I tried to prepare 
myself for the next phase of my life, securing a high paying career in 
the IT industry was the farthest thing from my mind - until the MSSA 
program came along.

MSSA

    By way of background, MSSA is a joint effort of Microsoft and its 
educational partner, Embry Riddle Aeronautical University (ERAU). The 
two have been hard at work collaborating with military installations 
such as Joint Base Lewis-McChord (JBLM), Camp Pendleton, Fort Hood, and 
Fort Campbell to implement the Microsoft Software and Systems Academy 
across the country. The company has also developed an ecosystem of 
private sector employers that have stepped up to hire MSSA graduates.
    I am pleased to report the program has graduated more than 325 
veterans from JBLM, Fort Hood and Camp Pendleton, of which 92% are 
presently working in high paying STEM related careers in the IT 
industry with an average starting salary of more than $70,000. 
Microsoft has plans to bring the program to an additional eight 
communities over the next eighteen months, servicing 14 military 
installations across the country. Fort Benning will open next in early 
August, followed by Marine Corps Base Quantico, Fort Bragg, Fort Bliss, 
and Marine Corps Base Lejeune in the months to come. Over one hundred 
employers, including some in this room, have joined with Microsoft to 
hire MSSA graduates into high paying tech careers. Their partnership is 
critical to the long-term success of this effort. I am proud to be a 
part of that success, because I have seen how the MSSA program changes 
lives for the better.
    I have come to find out through my work at Microsoft and by talking 
with my fellow MSSA graduates, employers outside of the IT sector are 
also competing for this same talent. Great companies from a wide 
spectrum of industries like GE, Ford, JP Morgan, Deloitte, and Blue 
Cross have stepped up to hire significant numbers of veterans.
    Given the enormity of the challenge, Microsoft understood they 
could not do this alone and that this initiative was not just about 
feeding their company talent pipeline. In fact, the skills that I have 
acquired were not Microsoft specific, but rather industry recognized 
credentials that provided me with job portability to work in a wide 
variety of rewarding IT occupations. More work is required to provide 
greater access to these skills training and job opportunities.
    As I mentioned earlier in my testimony, over the next five years 
Microsoft is committed to graduating 1,000 transitioning veterans each 
year, and placing at least 90% of them into high- paying jobs in the IT 
industry. We recognize that some MSSA graduates will decide to pursue 
their degree with the credits earned in the program. I know this option 
is also a viable path to employment success and should be supported 
through polices in Washington, D.C.
    Though our veteran unemployment rate has seen a significant drop, 
we are not yet out of the woods. With more than 200,000 veterans 
planning to transition out of the military every year over the next 
five years, there is a big opportunity for the IT industry to tap into 
a large talent pool of agile, dedicated, and technically sharp workers. 
These veterans continue to face unique challenges in transitioning to 
the civilian workforce, and deserve the highest level of support.
    I think my experience in transitioning was quite similar to many 
others; simply put, the transition to civilian life can be overwhelming 
and brutally challenging. There are numerous obstacles to overcome - an 
entirely new culture, a new language, and a new environment. Any one of 
these can be hard to manage on their own; together, they are very 
difficult to overcome. While there are hundreds of veteran support 
programs already in existence, the key differentiator of the MSSA 
program is that it prepared me for the whole host of transition 
challenges that face a veteran. While the four hours of technical 
homework every evening gave me skills that let me interview for the 
Microsoft job, what makes this program stand out from all others is the 
soft-skills training. I learned to write a resume; conduct myself in an 
interview; dress appropriately in a business setting; and develop an 
elevator pitch. But the most important part of this process was 
connecting with a veteran mentor from Microsoft. He checked in with me 
on a weekly basis, and we chatted about what life would be like once I 
transitioned out of the military. He shared his personal stories about 
how he overcame challenges with the help of the military affairs 
community that exists at Microsoft.

SkillBridge

    As I am sure the Members of this Subcommittee know very well, the 
Department of Defense, through its SkillBridge program, permits 
transitioning veterans to begin a certification or vocational training 
program such as the Microsoft Software and Systems Academy. From my 
experience, it was a life changing opportunity.
    This skills training can take place during a service member's last 
six months in service, affording the service member relevant training 
in a field he/she wants to pursue, and possibly securing employment 
prior to their end-of-active service (EAS). While this DOD program is 
beginning to gain momentum, there continues to be a preference for 
utilizing that transitioning service member until the very last day of 
service due to operational tempo and command requirements. This places 
an undue burden on the service member and restricts their opportunity 
to pursue career paths that can lead to high-paying jobs in industries 
I never believed possible. I urge the Members of this Subcommittee to 
work with the DOD and their military base commanders to broaden the 
acceptance of SkillBridge programs across a greater number of bases 
across the country. As a practical matter, there could also be a 
substantial cost savings for the military as more and more service 
members are able to secure meaningful civilian employment thereby 
reducing unemployment insurance costs for their respective branch of 
service. In these tight fiscal times, DOD could potentially save tens 
of millions of dollars annually by incorporating these successful 
programs onto every base in the country moving forward, and I'd 
recommend this committee to encourage the Department in that direction.

National Cybersecurity Employment Forecast

    I'd also recommend this committee engage with technology companies 
encouraging them to train and hire veterans in new areas, like 
cybersecurity, where demand is high. It is no surprise to most in this 
room that the Bureau of Labor Statistics continues to project a 
significant shortage of critical IT workers over the next decade. One 
very important technical area, where skilled workers are in most 
demand, is cybersecurity. These workers are critical, not only to the 
IT industry, but also to the public sector where they help protect our 
nation's infrastructure (electrical grids, waterways, mass transit, 
etc.). Transitioning service members with cybersecurity skills and top 
security clearances are primed for these high-paying careers. For our 
part, over the next several months, Microsoft will add a Security 
Administration Learning Path to the MSSA program, so that those who are 
interested in a career in cybersecurity can gain the training they 
need.

Community-Based Model

    While much of my testimony has focused on veteran employment, it is 
also important to understand military spouses. Spouses make tremendous 
sacrifices, especially when their loved one is deployed, protecting our 
nation and its citizens all over the world.
    For its part, Microsoft recognizes that more must be done to help 
spouses, and to that end, the company will be establishing a community-
based model of our Microsoft Software and Systems Academy (MSSA), that 
will offer evening courses, making them more available to working 
spouses who may want to make a career change.
    These two community based MSSA models will launch within the next 
12 months in San Diego and Jacksonville. While we are also eager to 
expand into Norfolk, another vibrant military community with a 
significant number of active, retired and veteran military population, 
the Navy's higher operational tempo and need to keep their sailors 
working through their last day of service is making the launch of a 
model there more difficult than anticipated. But with the Committee's 
support and encouragement, we are hopeful that individuals in the Navy 
will soon be afforded similar opportunities, and possibly have a great 
IT career awaiting them at the end of their military service.

Conclusion

    I am so proud of the work the Microsoft Military Affairs team is 
doing to empower veterans like me with training that leads to high-
paying IT careers.
    Our veterans are a national resource. As a nation, we invest in 
them heavily with the best training and most technically advanced 
equipment in the world. These are smart, agile, dependable, and 
motivated individuals that are ready to work. It is incumbent upon all 
of us to facilitate the challenging transition from the military to the 
civilian workforce.
    Our veterans have made sacrifices. It is time for industry, 
government, and non-profit leaders to give back by investing in our 
veterans by increasing access to the types of in-demand IT training 
that leads not just to a job, but to meaningful careers. The Microsoft 
Software and Systems Academy is a model that fulfills this mission. I 
am living proof.
    Thank you for your ongoing support of our veterans and for allowing 
me to share my story and Microsoft's commitment.

                Appendix for Bernard Bergan's Testimony
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 
                  Prepared Statement of Brian Huseman
    Thank you, Chairman Wenstrup and Ranking Member Takano. My name is 
Brian Huseman, and I am Amazon's Vice President of Public Policy. 
Amazon's mission is to be Earth's most customer-centric company. To 
accomplish this, we're constantly looking for leaders who can invent, 
think big, have bias for action, and deliver results on behalf of our 
customers. These principles look very familiar to the men and women who 
have served our country in the armed forces - and also to their 
spouses.
    Amazon actively recruits U.S. military veterans to join Amazon to 
fill roles across our company, from our corporate offices to our 
fulfillment network. Since 2011, we've hired more than 10,000 veterans, 
and we recently announced a major commitment to hire veterans and 
military spouses over the next five years. In addition, Amazon is 
committed to providing technical training to service members, veterans, 
and military spouses, paving the way for them to secure the 
certifications necessary to pursue careers in cloud computing, where 
open positions outpace hiring. We believe this is the smart thing to do 
for our veterans and military spouses, for Amazon, and for our hundreds 
of millions of customers - and we're excited to keep hiring and 
training these incredible leaders.
    Thank you for your attention to this important topic, for calling 
this hearing, and for inviting me to testify.

I. Amazon's Commitment to Hiring Veterans and Military Spouses

    As part of the 5th Anniversary of the Joining Forces initiative 
earlier this month, Amazon announced that we are pledging to hire 
25,000 additional veterans and military spouses over the next five 
years, the largest pledge announced by any technology company. These 
new hires will join Amazon's growing community of veterans and military 
spouses, also known as our Amazon Warriors.
    At Amazon, we're guided by our Leadership Principles. \1\ They're 
ingrained in our work - we use them when we're talking through a new 
project, interviewing a prospective hire, or solving a customer's 
problem. What we've found in our years of hiring veterans and military 
spouses is that many of our Leadership Principles closely align with 
what makes people successful in the military.
---------------------------------------------------------------------------
    \1\ See https://www.amazon.jobs/principles.
---------------------------------------------------------------------------
    While our pledge is stepping up our commitment to hiring veterans 
and military spouses, Amazon has a well-established history of actively 
recruiting and developing candidates from the military. Amazon's 
Military Talent Partnership is a team of military recruiters that 
includes veterans from all branches of the armed forces. Our team 
assists applicants in translating their skills and experience to the 
requirements of job openings at Amazon and provides them guidance for 
how to successfully interview. Amazon recruiters attended more than 70 
veterans job fairs in the last year to help veterans and military 
spouses find job opportunities at Amazon. Our team works hard to 
provide veterans and military spouses with opportunities and the tools 
to pursue successful careers at Amazon.
    We are also fortunate to have a strong and growing group of 
military spouses on our team. We've found that military spouses' calm 
under regular change - paired with their ability to handle ambiguity - 
make them well-suited for the fast-paced, ever-changing work at Amazon. 
Military spouses face the significant challenge of finding careers that 
can move with them through frequent relocations with their spouses. For 
example, our Virtual Contact Centers offer a unique customer service 
work experience that enables our associates to work remotely. This 
provides consistent, meaningful work for military spouses, and allows 
Amazon to employ highly capable customer service representatives across 
the country.
    This is the promise of the growing tech industry, after all - 
creating the flexibility of position portability, and empowering 
military spouses to pursue careers, not just jobs. We're proud of our 
military spouses, such as Gen Harrison-Doss, whose husband is stationed 
at Dyess Air Force Base. Gen leads a team of recruiters in Seattle from 
her home in Abilene, Texas, and has not only moved during her tenure, 
she has been promoted and continues to advance her career at Amazon.

II. Training and Mentorship of our Veteran Employees

    Our commitment to the military does not end once candidates are 
hired. Once employed at Amazon, we offer veterans several programs that 
help them transition more easily into the civilian workforce. We 
connect them with our significant internal network of veterans to 
provide mentoring and support. Our Amazon Warriors employee affinity 
group provides a community for veterans and military families to share 
experiences, gain exposure to career and development opportunities, and 
participate in community and recruiting events.

A. Amazon Web Services Certification Training

    As part of our recent Joining Forces announcement, we also pledged 
to train 10,000 service members, veterans, and military spouses in 
cloud computing - offering a path to Amazon Web Services (AWS) 
Certification and providing a gateway into this high-demand field. AWS 
Certifications recognize IT professionals with the technical skills and 
expertise to design, deploy, and operate applications and 
infrastructure on AWS.
    Successfully passing AWS Certification requires hands-on experience 
with the AWS Platform. So through our pledge, we are offering these 
10,000 transitioning military service members and spouses free 
membership to AWS Educate, a critical resource to accelerate cloud-
related learning endeavors. AWS Educate provides training courses, a 
wide library of cloud content, and access to our collaboration portal. 
We will also offer free access to labs that are part of the examination 
preparation programs. Finally, AWS Certification exam fees are eligible 
for reimbursement from the Department of Veterans Administration under 
the GI Bill's education provision.

B. Career Choice Program

    Veterans and military spouses in eligible Amazon roles can enroll 
in the Amazon Career Choice Program, where we'll pre-pay 95% of tuition 
and fees for courses related to in-demand fields, regardless of whether 
the skills are relevant to a career at Amazon. Through this program, we 
exclusively fund education in high-demand fields, as defined by the 
U.S. Bureau of Labor Statistics.
    Last year, we expanded the initiative to include purpose-built 
classrooms onsite at eight of our U.S. fulfillment centers. We found 
that offering courses onsite helped associates be more successful in 
achieving their aspirations at Amazon or beyond. With this in mind, our 
new fulfillment centers will be built with onsite classrooms as part of 
the standard blueprint, and we're bringing dedicated onsite Career 
Choice Classrooms to more than a dozen existing sites.
    So far, thousands of employees worldwide have participated in 
Amazon's Career Choice program, and our first Career Choice graduate is 
now a registered nurse in Kentucky. We are proud of this innovative 
program and the fact that our current and future eligible veteran and 
military spouse employees will have the opportunity to earn 
certificates and associate degrees in such fields as aircraft 
mechanics, computer-aided design, machine tool technologies, medical 
lab technologies, and many others.

III. Recommendations for Increasing Veterans in Tech

    Because of our extensive experience in hiring veterans and military 
spouses, we would like to offer two principal recommendations for 
increasing the number of veterans in the tech sector and better 
preparing them for a transition to the industry.
    First, we recommend that the military offer active duty service 
members the ability to partake in technical training in fields like 
cloud computing before they depart from service. Although the U.S. has 
the most technically advanced military in the world, our service 
members may not be working with the latest software and systems that 
are being used by the private sector. We also believe many separating 
service members are excellent candidates for careers in high-tech, even 
though their backgrounds might not be technical. Without any technical 
training, they may never explore jobs in this high-demand field. When 
veterans transition, many don't have the flexibility to invest in 
education and training that will lead to a better career. Often, the 
first job they're offered is the one they will accept. We believe 
technical training programs during their military service will mean our 
veterans can enter the job market fully qualified to be hired at tech 
companies like Amazon.
    Initiatives such as the Department of Defense (DoD) SkillBridge 
Program provide an opportunity for service members to pursue critical 
training prior to separation from service. Under this program, some 
service members can participate in civilian job and employment training 
- including apprenticeships and internships at tech companies - up to 
six months prior to service separation. Use of this program is not 
widespread due to the operational demands of the military. Amazon 
recommends that the Subcommittee explore the program's utilization 
rates and identify whether this program could be expanded without 
negative effects on staffing availability and unit readiness.
    Second, we also recommend expansion of partnerships between the 
military and the private sector that can prepare our service members 
for jobs in the technology sector. Specifically, we recommend expanding 
the Department of Defense (DoD) Training/Education with Industry (TWI/
EWI) and Secretary of Defense Corporate Fellows Programs (SDCFP). Since 
2013, Amazon has partnered with DoD in sponsoring select military 
personnel to spend a year in the TWI/EWI program. And for the first 
time, we'll also be participating in SDCFP. Amazon offers our TWI/EWI 
students and SDCFP Fellows an exceptional, world-class experience by 
providing exposure across our many business segments and activities. 
This year, eight commissioned officers and one senior non-commissioned 
officer (two Air Force, four Army, and three Navy) were assigned across 
Amazon business units - including our fulfillment centers, operations, 
Prime Air, and Amazon Web Services. These service members - as well as 
those placed at other companies - are exposed to new processes and 
innovative business cultures during their time at tech companies. 
They're able to bring back new ideas and try different processes when 
they return to service. And in return, companies like Amazon have top-
tier military talent offering new perspectives on our business and how 
to connect with customers. We recommend that other technology companies 
make the investment to partner with the DoD on this successful program, 
which has proven its value to both Amazon and the DoD.
    We also recommend more programs like the Camo2Commerce program. 
Camo2Commerce is a career development initiative that assists 
transitioning service members from Joint Base Lewis-McChord in Amazon's 
home state of Washington. The goal of this program is to enable 
transitioning service members to move into the civilian workforce, and 
specifically into high-demand, well-paying career opportunities, such 
as cloud computing, through one-on-one career coaching, job placement 
services, short-term training, and hiring fairs. We have found that the 
service members from Camo2Commerce are more likely to have the skills 
required for Amazon's technical positions. And our AWS hiring managers 
seek out service members who have completed Camo2Commerce. We hope 
programs like Camo2Commerce will be expanded and replicated to other 
bases.

Conclusion

    Amazon looks forward to working with you and our tech industry 
colleagues to increase the number of veterans in the tech space and to 
ensure they have the right skills when they are ready to transition out 
of the military. Our veteran and military spouse employees are a 
tremendous asset for our company and our customers, and we are excited 
to see what the next 25,000 who join Amazon will build and innovate 
over the next several years.
    Thank you again for inviting me to testify. I look forward to your 
questions.

                                 <F-dash>
   Prepared Statement of Vice Admiral Joseph Kernan (U.S. Navy, Ret.)
    Chairman Wenstrup, Ranking Member Takano and Members of the 
Subcommittee. My name is Joseph Kernan. I am a retired U.S. Navy Vice 
Admiral - having spent over 36 years on active duty. I am currently the 
Senior Vice President of Corporate Development and Marketing for SAP 
National Security Services. But I am here today to testify in my other 
role as Chairman of NS2 Serves, a non-profit training and employment 
program for veterans.
    It is an honor to appear before you today to talk about an issue 
that is very important to me - the successful transitioning of our 
military service members into the civilian workplace. As you will see 
today, I am very passionate about this topic and this subcommittee has 
my heartfelt thanks for its continued work in assisting veterans 
returning home.
    My commitment to this issue stems from my years serving in the US 
Navy. After graduating from the US Naval Academy in 1977, I spent my 
years on active duty developing deep experience in naval, joint and 
special operations and in government interagency and national security 
matters. After serving at sea on Navy warships for 4 years, I 
transitioned to the SEAL program in 1981 and served in each of six 
geographic regions and in all Naval Special Warfare leadership career 
milestone positions. These include commanding SEAL Team Two, the Naval 
Special Warfare Development Group and the Naval Special Warfare Command 
- overseeing all resourcing, readiness and employment requirements for 
the SEAL/Naval Special Warfare community. I recommissioned and served 
as Commander of the United States Fourth Fleet, overseeing US and 
foreign counterpart naval activities in the Caribbean and Central and 
South America - my final career tours were as the Senior Military 
Assistant to former Defense Secretary Robert Gates and Deputy 
Commander, US Southern Command.

Today's veteran

    Veterans have chosen to devote a portion of their lives to public 
service. During their service, they develop a wide variety of work and 
life skills that are invaluable in the civilian workplace. The 
challenge of translating these skills when applying for a job or at the 
workplace is often daunting for the aforementioned veteran population. 
These young men and women do not want a handout, but rather an 
opportunity for a fresh start in post-military life and a chance for a 
fulfilling career. Unquestionably, this can help mitigate many of the 
personal challenges veterans face as a result of the traumas they may 
have experienced in conflict zones.
    The commercial information technology field is ideally suited to 
veterans, regardless of their military occupational specialty. For 
example, service men and women routinely use commercial technology to 
manage mission planning, human resource management, systems operations 
and maintenance, and supply chain and financial management functions 
common in the commercial business sector, This, combined with the 
generational trend to leverage technology for everyday activities, 
ideally suits veterans for work in the I.T. field. It is important for 
employers to understand that veterans not only serve our country's 
national security interests but as well must run the day-to-day 
business of the Department of Defense.
    The personal traits and attributes developed over the course of 
service in the military are truly the extraordinary commercial work 
place differentiators. From the very start of their military service, 
young men and women are instilled with a strong sense of character and 
develop invaluable work traits:

    1. Veterans strive to be leaders.

    In the military, leadership is continually fostered to the point of 
becoming an ingrained attribute. Veterans respect and understand the 
roles of leaders and willingly accept and seek leadership 
opportunities. Very importantly, there is a clear understanding of the 
preeminent responsibility of those entrusted with leadership roles. 
They learn from some of this nation's best leaders - allowing these 
veterans to become successful leaders themselves.

    2. Veterans know how to work as a team.

    Working successfully in a team is an essential attribute in an 
effective workplace. It is also the foundation on which safe and 
successful military operations are conducted. Veterans have developed 
an uncompromising responsibility to their peers, subordinates and 
superiors alike. Veterans have learned to work indifferently and 
respectfully with teammates and co-workers, regardless of race, gender, 
religion, ethnicity and national origin. They understand that there is 
``no `I' in team'' and that success is invariably related to their 
collective efforts. While military duties stress teamwork and group 
productivity, they also build individuals who are able to perform 
independently when the situation demands it.

    3. Veterans are trained to quickly learn new skills and concepts.

    While in the service, members of the military are continually 
trained in a multitude of cross-functional skills and routinely become 
adept at mastering the tools that enable success. The demand for both 
administrative and occupational skills is high, and the ability to 
quickly adapt to dynamic operational environments or emerging 
technology enhancements is essential to mission success. The risk and 
dire consequences of complacency are well understood by every veteran.

    4. Veterans are mission/goal oriented.

    In the military, the mission is paramount. Veterans have been 
trained to plan extensively for a particular task and adapt to the 
circumstances they face during mission execution. Their sense of duty, 
responsibility and accountability for job performance and mission 
success are not compromised and remain priorities. The culture, 
leadership and proficiency within our military are respected and envied 
around the world.

    5. Veterans excel in high stress situations.

    In today's fast paced work environment, having the ability to 
persevere under difficult or stressful circumstances is critical. 
Veterans are trained and expected to perform under stress, 
accomplishing assigned tasks in a timely and effective manner. They 
learn to do so with the resources at hand.

    6. Veterans are highly effectively in a structured environment.

    Companies may hesitate to hire a veteran, believing their military 
experiences don't translate to a corporate setting. To the contrary, 
veterans have a deep sense of accountability and they understand how 
policies and procedures are necessary for stability, safety, and 
productivity. They are able to follow rules and schedules, and value 
organization and discipline.

    7. Veterans have strong communication skills.

    Finally, regardless of varying intellectual and physical abilities, 
each individual is respected for his or her role in the organization. 
Military personnel are taught to have a questioning and thoughtful 
mentality, and they are not afraid to respectfully offer perspective 
and recommendations to supervisors.

NS2 Serves

    In order to help address the challenge of unemployment among young 
veterans, SAP National Security Services Inc. r (SAP NS2r) - an 
independent subsidiary of SAP SE, comprised of U.S. citizens operating 
on U.S. soil - established a non-profit organization in 2014, NS2 
Serves, to train and find employment for veterans in high-tech careers. 
SAP NS2 is the predominant funder for this program - but we continue to 
look for partners within the business and philanthropic community.
    Through this program, predominantly targeting enlisted men and 
women from all military services and skill specialties, we arm 
graduates with SAP technology certifications and other attributes 
highly sought by commercial human resource managers and others in the 
technology arena. The NS2 Serves program is unique in nature and there 
are a number of key distinguishers worth mentioning. I have attached a 
document to my statement with specific details and qualifications for 
the NS2 Serves program - but let me highlight them for you today.

    <bullet>  First, the program specifically targets enlisted men and 
women rather than the officer corps, who tend to have far fewer 
problems finding post-service employment. Unemployment continues to 
plague many veterans once they leave the military, particularly in the 
case of enlisted men and women between the ages of 25 and 34. The 
Bureau of Labor Statistics reported in 2014 that the unemployment rate 
for veterans was 25 percent higher than the nonveteran unemployment 
rate - and that statistic has stayed fairly consistent over time. 
Unlike veteran hiring programs marketed by many companies, which as 
well have many benefits, NS2 Serves targets younger veterans who have 
recently left military service or are in the process of leaving the 
military and are most challenged finding substantive employment. 
Despite their years of dedicated service, younger veterans are 
struggling to secure full time, substantive career opportunities to 
support themselves and their families.
    <bullet>  Second, the program is an in-resident, fully funded, 11-
week program that leverages veterans' penchant for teamwork. By having 
an in-resident program, participants can collectively help each other 
in the transition and through the challenging academic regimen without 
other day-to-day demands and distractions associated with commuter or 
part-time programs. Invariably, participants develop a strong 
friendships and personal commitment to the success of every member of 
the class. Many hours are spent outside the classroom studying to 
ensure this goal is met. Ultimately, the class measures their 
individual success by the success of the entire class.
    <bullet>  Third, each graduate receives a highly valued industry 
consultant certification and skill set which, to date, has afforded 
100% job placement and a minimum starting salary of $60K, inclusive of 
family medical and retirement benefits. Select companies that have 
hired our veterans include: SAP NS2, SAP, Accenture Federal, US 
Department of Agriculture, Deloitte, Lockheed Martin, Northrop Grumman, 
CBeyondata, Johnson Technology Systems, Inc., Defense Logistics Agency, 
Naval Supply Systems Command, and Unisys. The certification that the 
graduates receive to support SAP software offers them vast employment 
opportunities within the government and in the private sector. 
Thousands of companies and organizations worldwide utilize SAP products 
and require support from trained consultants.
    <bullet>  Fourth, and finally, the program training positions 
graduates not only for a career in the IT field but also equips them 
with the relevant skills necessary to branch into many other lines of 
work. A veteran's military service and military experience - coupled 
with the NS2 Program training - affords employers with a devoted 
employee that can become a highly productive member of an organization.

    The average NS2 Serves class size ranges from 19 - 23 veterans. By 
the end of this week, we will have graduated 100 veterans and to date, 
have successfully helped 100 percent of our graduates gain employment. 
Our cost per graduate of the program is approximately $15,000 and we 
feel this is a worthwhile investment in our nation's veterans.
    The NS2 Serves program metric is not about gross numbers of 
veterans hired into any jobs or numbers hired that have deep military, 
industry or educational backgrounds. The program targets those with the 
greatest need, provides them with a high demand, career-centric skill 
set, and then places graduates in jobs that start careers. The 
program's success requires all of these components.

Recommendations for the increased hiring of veterans

    Since beginning the NS2 Serves Program in 2014, I, and all those at 
SAP NS2 that voluntarily support the program, have learned much about 
the continued challenges facing today's veterans.
    One of the most important lessons we have learned is that training 
and placing veterans in jobs that have strong career potential 
mitigates many of the personal and emotional challenges veterans often 
face. The horrors of war have taken a great toll on this generation. 
They need substantive, rewarding work to care for themselves and their 
families that might negate a future dependence on government subsidies.
    As I've stated, programs targeting the hiring of veterans must 
address the needs of those most challenged to find post-military 
service employment. In order to help posture veterans for success in 
transition, the provision of some level of education and training can 
be critical. This is certainly the case for those jobs that offer 
strong career potential but the investment does not have to be 
exorbitant, as veterans are masters at on the job training.

Virtual Job Opportunity Forum

    At present, most veterans do not have an understanding of the 
civilian hiring process nor do they have access to the information that 
would facilitate their search efforts. A central, easily accessible 
repository/website of job opportunities and application guidelines 
would be useful and the Department of Labor's ``veterans.gov'' website 
can be a start. However, even this particular online tool can be 
difficult to navigate. The user has to know the right keywords to input 
in order to get useful information. In addition, if the user does not 
use the correct keywords, their resume can be rejected - similar to 
what frequently happens with the USA Jobs site.
    Far too often, veterans looking for employment are overwhelmed by 
the process and our goal should be to make these kinds of websites easy 
to use. Prior to the end of their service, veterans should be exposed 
to this type of tool. This central repository should be populated by 
the numerous companies that market their intent to hire veterans and 
must be continually updated in order to be useful and relevant to 
veterans entering the job market.

Investing in veterans

    With so many veterans looking for employment and with limited 
resources to assist them - we have to find ways to more effectively 
connect veterans to job opportunities. I would ask that there be strong 
advocacy for the NS2 Serves model - invest in preparing veterans and 
give them the entry skills they might need for a particular job. Many 
companies have the resources to support this model and should be 
proactive in this regard. They just need to recognize the long term 
value of veterans in their workforce.

Job qualifications

    Most enlisted veterans leaving the service do not have college 
degrees, often a requirement for securing a career-promising job. 
Veterans should be recognized for their significant experience. Those 
programs which give veterans college credits for what they have learned 
and experienced are extremely helpful. Each veteran who has attended 
the NS2 Serves program is pursuing their college degree. Their GI Bill 
benefits are critical to this goal. A key component to the value of the 
NS2 Serves program is that government or GI Bill benefits are not 
required for completion. Rather, the program model is for potential 
employers to invest nominally in veterans so they are can begin their 
post-service careers.

Conclusion

    Mr. Chairman, Ranking Member Takano and Members of this 
Subcommittee, I would again like to thank you for the opportunity to 
testify before you today. As you can tell, I feel very strongly that 
more needs to be done to prepare today's veterans for entering into the 
civilian workplace. Today's veterans have so much more to offer this 
country. Our task is to help harness their talents and assist them 
along the way.
    I am happy to answer any questions you may have for me today.

                                 <F-dash>
                   Prepared Statement of Todd Bowers
    Chairman Wenstrup, Ranking Member Takano, and Members of the 
Committee. Thank you for inviting me to speak to you about the 
UberMILITARY program and our endeavors to support veterans and military 
families as they face the many transitions that military life offers. 
It has been many years since I last sat before this committee and I am 
honored to be invited back.
    I would like to take a few moments to first share with you how I 
ended up becoming involved in the UberMILITARY program. I served as a 
Marine Reservist for more than 12 years here in our nation's capital. 
During my enlistment, I deployed multiple times finding myself crossing 
the bridges of Al Nasiriyah and in the streets of Fallujah, Iraq. I've 
climbed the mountains of northern Helmand province in Afghanistan and 
shook hands in small villages in South America. Not a day goes by that 
I am not thankful for these experiences and how it shaped me into who I 
am today.
    It was during my second tour in Iraq that I was caught in a 
firefight that pinned me behind a HMMWV (Humvee) on the outskirts of 
Fallujah just prior to Operation Phantom Fury. Unexpectedly, the 
vehicle that I was taking cover behind drove off the roadway leaving me 
exposed to enemy fire. With my cover suddenly gone, I engaged a machine 
gun position and was struck in the face by a sniper's bullet as it 
skimmed through my rifle scope. Needless to say, the Marine that drove 
the HMMWV away did not get a 5 star rating for that trip.
    A few months later, I found myself back in Washington D.C. waiting 
for classes to start. To make ends meet, and avoid depleting my hard 
earned deployment savings, I worked difficult hours at a local bar and 
took on a work study program. The inability to have a flexible work 
schedule negatively impacted my studies greatly. It was during this 
time, that I realized there had to be a better way for my fellow 
veterans to find some financial stability with opportunities that 
provide the flexibility and mobility that vets need to face the many 
rigors of reintegration into civilian life. This is what inevitably led 
me to UberMILITARY.
    In September 2014, Uber announced that we were aiming to partner 
with 50,000 members of the military community including veterans and 
military family members. We created this target because we knew that 
the skills, work ethic, and integrity exemplified by our nation's 
veterans is unmatched - frankly, we knew it would be good for business. 
Based on data tracking in cities with high veteran populations, like 
San Diego, our data showed that compared to their civilian peers, 
veteran partner drivers drove on the Uber platform longer and had 
higher customer ratings. Focusing on veterans and military families was 
a business decision but more importantly, it was a way to empower this 
community.
    After just 18 months of engaging with the military community, Uber 
achieved its goal and ahead of schedule. Today, more than 55,000 self-
identified veterans and military family members have signed up to drive 
with Uber and over 50% have taken a trip on the platform. All of that 
work has resulted in an astounding $152,000,000 in earnings.
    To mark this moment, Uber has donated $1,000,000 on behalf of our 
uberMILITARY Advisory Board to organizations that support veterans and 
military families, including the USO, The Fisher House, Tragedy 
Assistance Program for Survivors (TAPS) and Iraq and Afghanistan 
Veterans of America (IAVA).
    So how did Uber do this? To start, we designated and engaged with 
more than 60 UberMILITARY program leaders from our city-based teams, 
many of which are veterans themselves. These individuals led the charge 
in their respective cities working with local and national 
organizations, base commanders and community leaders. We launched 
country-wide rider and driver UberMILITARY awareness campaigns, and 
hosted a Veterans Day in-app activation in support of the White House 
Joining Forces Initiative to help homeless veterans get to and from 
employment opportunities. We tightened up our military identification 
and verification process for those already on the platform to ensure we 
could continue to effectively engage with them. Then to take our 
program even further, we partnered with blue chip organizations that 
support the military community such as the Chamber of Commerce Hiring 
Our Heroes initiative, Blue Star Families and the American Military 
Families Association.
    Finally, Uber created the UberMILITARY Board of Advisors, an 
impressive group of military leaders chaired by former Secretary of 
Defense Dr. Robert Gates, to provide guidance on this important 
project. General Stanley McChrystal, Admiral Michael Mullen, General 
James Mattis and Mrs. Sheila Casey are just a few of the others that 
signed on to lend their support and currently serve on our Board of 
Advisors.
    We couldn't be more grateful for those who have advised and 
partnered with us to help make our goal become a reality.
    After engaging with active UberMILITARY partners, we found that 
veterans and military families are particularly drawn to driving on the 
Uber platform because of the flexibility it offers. In fact, in a March 
2016 UberMILITARY driver's survey, 77% of those surveyed stated that 
they decide when to drive with Uber, and schedule it around their other 
commitments. For most veterans, that flexibility provides an 
opportunity to readjust to working and interacting with civilians. But 
for some veterans, specifically those who have disabilities that 
require more care, it allows them to earn income while still being able 
to easily make time for medical appointments and other therapies that 
are essential to their recovery. We believe we offer veterans a new 
type of transitional experience that will set them up for the success 
they deserve.
    Being an Uber partner gives our nation's veterans economic freedom, 
a chance to be their own boss and even allows them to leverage one of 
their largest assets, their cars. Our survey of UberMILITARY partners 
informed us that the number one reason veterans sign up to drive is to 
earn money as a secondary source of income. This feedback came as no 
surprise given the results of the most recent Veteran Affairs Economic 
Study, which found that 53% of separating Post-9/11 veterans will face 
a period of unemployment. Driving with Uber helps to conveniently and 
easily fill these gaps for veterans as well as their families.
    Many veterans find themselves in a rush to find work as they begin 
to transition back to civilian life. As I experienced in my own 
transition, when there is not an immediate income opportunity available 
it is very easy to get into a spiral that leads to burning through 
savings, incurring debt and mounting bills creating a financial urgency 
that forces too many to take the first job offer that comes their way. 
The Institute of Veterans and Military Families recently concluded that 
``nearly half of those surveyed stayed in their first post-separation 
position 12 months or less. Further, there is an association between 
job tenure and job alignment with the respondent's preferred career 
field.'' If veterans feel pressure to find employment immediately they 
tend to accept employment that may not effectively leverage their skill 
set resulting in low retention rates. Uber provides an alternative path 
for veterans - one where they can take their time finding a job without 
the burden of financial stressors.
    UberMILITARY allows our transitioning veterans the flexibility they 
need to successfully adjust to civilian life, provides economic 
opportunity, fills the gaps of unemployment that too many experience, 
and gives them the time to figure out what they really want to do 
without the burden of financial stressors. But UberMILITARY is not just 
providing opportunities for veterans, we are also actively recruiting 
military family members. Blue Star Families' most recent Military 
Lifestyle survey highlighted that 58% of non-employed military spouses 
would like to be employed or have some source of income. Finding 
consistent employment that allows flexibility and is transferable to 
other locations around the world has never been so readily available, 
and now military spouses and family members are being empowered by 
driving on the platform. We are so proud to be able to provide 
opportunities for military families that, at times, felt left behind by 
an employment marketplace that didn't fit their lifestyles.
    Admiral Michael Mullen, former Chairman of the Joints Chiefs of 
Staff, once said that driving with Uber ``...provides flexibility and 
allows veterans to pursue the American dream, be it furthering 
education, pursuing certification or starting a small business. It's a 
tremendous platform for those transitioning from the military.'' And 
that is exactly what I hope UberMILITARY can do, help our veterans 
pursue their American dream.
    As we look at the future for UberMILITARY, we are setting new goals 
that will continue to have an impact that this community has earned and 
deserves. Our new mission is as follows:

    <bullet>  $500M in earnings to driver partners who have served in 
the military and their families by 2020: We want our UberMILITARY 
veterans and families to take home half a billion dollars by 2020 
throughout their work as driver partners.
    <bullet>  Increase access to reliable transportation in military 
communities and reduce alcohol-related incidents on and around military 
installations. UberMILITARY is going to focus on making transportation 
more accessible around military installations by reaching out and 
working with base commanders and community leaders to ensure that 
everyone has a safe ride. By expanding access to reliable rides at the 
push of a button, we hope to see a reduction in alcohol-related 
incidents in military communities. We look forward to expanding our 
partnership with Mothers Against Drunk Driving (MADD) to provide safety 
education programs on and around military installations.
    <bullet>  Make Uber even more rewarding for drivers from military 
backgrounds. We are currently expanding existing programs to offer 
unique rewards specifically for members of the UberMILITARY family.

    I would like to conclude my testimony today on a personal note. 
After leaving service, I knew I wanted to do something that would truly 
make a difference in the lives of my fellow service members and I can 
tell you that I am fulfilling my dream by being a part of UberMILITARY. 
The flexibility and earning opportunity that driving with Uber provides 
allows veterans and military families to support their many 
transitions, generate additional income and support their families and 
communities in ways never before possible. I am proud to say that a 
technology platform has never economically empowered this community in 
such a manner before, and this is just the beginning. As we continue 
our mission, I am enthusiastic to go to work every day and help provide 
the opportunities that our veterans and military families deserve.
    Thank you for your time and I look forward to answering any 
question you may have.

                                 
                       Statements For The Record

                          INTERNET ASSOCIATION
    May 13, 2016

    The Honorable Brad Wenstrup
    Chairman
    Subcommittee on Economic Opportunity
    House Committee on Veterans Affairs
    335 Cannon House Office Building
    Washington, D.C. 20515

    The Honorable Mark Takano
    Ranking Member
    Subcommittee on Economic Opportunity
    House Committee on Veterans Affairs
    335 Cannon House Office Building
    Washington, D.C. 20515

    RE: ``Veterans in Tech: Innovative Careers for All Generations of 
Veterans.''

    Dear Chairman Wenstrup and Ranking Member Takano:

    The Internet Association applauds your efforts to highlight the 
work that Internet companies do for transitioning veterans. We 
appreciate the opportunity to provide a written statement for the 
hearing on ``Veterans in Tech: Innovative Careers for All Generations 
of Veterans'' and request that this letter and attachment be submitted 
for the hearing record.
    The Internet Association works to advance policies that foster 
innovation, promote economic growth, and empower people through the 
free and open Internet. The Internet creates unprecedented benefits for 
society, and as the voice of the world's leading Internet companies, we 
ensure stakeholders understand these benefits.
    Our men and women in uniform return home with invaluable skills: 
they are some of the most highly qualified and trained individuals in 
the nation, equipped with unique skillsets and leadership that enhance 
diverse backgrounds. In addition to recognizing the value of veterans' 
skills in the workforce, Internet companies also recognize that the 
connected world offers new opportunities for transitioning veterans to 
harness new skills. To build upon both of these opportunities, Internet 
companies are undertaking new and creative methods of providing our 
veterans with the tools they need for a successful future.
    Diverse Internet platforms offer an array of opportunities and 
tools for veterans in transition. While the experience of each platform 
and veteran is unique, several observations regarding the opportunities 
provided by Internet companies include:

    1. The sharing economy has created flexible workforce opportunities 
for today's veterans, allowing them to create their own schedules and 
be their own boss.
    2. As veterans return to the workforce, a standard nine to five 
regime may not fit their needs. These new Internet platforms help to 
ease the transition back into the workforce by offering flexible 
options.
    3. Internet companies provide veterans with unprecedented access to 
global resources that provide support for veterans and their families.
    4. Veterans are equipped with unique and valuable skills that 
enhance the workforce within Internet companies.

    As hundreds of thousands of men and women transition from military 
life each year, Internet companies look forward to working with our 
partners and veterans to continue and build upon the success of current 
programs. Attached to this letter, please find description of just some 
of programs offered and supported by Internet Association companies. We 
commend your attention to this issue and look forward to continuing to 
work with you to advance opportunities and support networks for our 
nation's veterans.

    Respectfully Submitted,

    Michael Beckerman
    President & CEO

    CC: The Honorable Jeff Miller, Chairman, House Committee on 
Veterans Affairs
    The Honorable Corrine Brown, Ranking Member, House Committee on 
Veterans Affairs

Attachment

Airbnb

    The Airbnb Open Homes program provides free, short-term stays on 
Airbnb for individuals and families during times of need or celebration 
such as medical patients traveling for treatment, low-income students 
visiting college campuses or veterans transitioning to civilian life. 
Airbnb works with nonprofit organizations to identify the guests. 
Thanks to Airbnb's incredible host community, they are able to not just 
provide these individuals with a place to stay; they are able to offer 
them a place to call home during a time of need, celebration or 
adventure. Through this program, Airbnb has worked with organizations 
like The Honor Foundation and Operation Code to provide free 
accommodations for military veterans traveling for job interviews and 
professional development opportunities.
    In addition to internal programs, Airbnb has donated to veteran aid 
efforts in the community. On November 22, 2014, Airbnb donated $77,000 
to Swords to Plowshares to complete the funding for new housing for 
veterans at The Stanford Hotel on 250 Kearny Street in San Francisco. 
Airbnb also provided funds and volunteer hours to put finishing touches 
on the space with furniture, paint and decoration.
    Bevan Dufty, San Francisco's Director of HOPE (Housing Opportunity, 
Partnerships and Engagement) said, ``Airbnb is providing needed people-
power and financial support to ready 250 Kearny for 130 veterans who no 
longer have to live on the streets of San Francisco. [...] Our goal is 
to end veteran homelessness and Airbnb is helping us make a giant step 
towards that goal.''
    Michael Blecker, Executive Director of Swords to Plowshares said, 
``Transforming 250 Kearny Street into housing for homeless veterans has 
been a true community-wide effort. [...] Airbnb's generosity and 
commitment to giving back to our community is an impressive example of 
how the private sector is stepping up to help Swords to Plowshares and 
the city end veteran homelessness.''
    CPO and co-founder of Airbnb, Joe Gebbia, made it clear that, 
``Airbnb is honored to support our hometown heroes who have selflessly 
served our nation [...] We are pleased to commit resources and bring 
our community of employees, hosts and guests together to help ensure 
that 250 Kearny is a welcoming home for San Francisco's Veterans.''

Facebook

    Social media has dramatically changed how servicemen and 
servicewomen stay in touch with their families and friends. Over the 
last four years, military families have significantly increased their 
use of social media. In fact, 93% of military families currently use 
Facebook to stay connected which is why Facebook is committed to making 
the lives of veterans easier.
    Facebook is a long time sponsor of the Blue Star Families Military 
Lifestyle Survey. As such, Facebook works with BSF to facilitate a 
holistic understanding of service members, veterans, and military 
family experiences so that communities, legislators, and policymakers 
can better serve the military population's unique needs; and identify 
the key aspects of military life to effectively target resources, 
services, and programs that support the sustainability of military 
service and the All-Volunteer Force.
    In addition to finding high numbers of military families using 
Facebook to stay connected, this year's survey found that the 
percentage of military family members (for example military spouses) 
who have considered suicide (10%) is almost equal to the percentage of 
service members who have considered suicide (9 %). Facebook already 
provides suicide prevention resources and tools. Specifically, friends 
can report suicidal content, which triggers an email to the poster, 
providing him/her with a note that includes contact and chat 
information for the National Suicide Prevention Lifeline.
    Veterans, active duty service members and their families can have 
special needs. BSF has been working to meet these needs and there are 
several specific resources provided to our nation's military that BSF 
wanted to make sure they were aware of, especially in times of 
potential crisis. That's why BSF worked with the Facebook engineering 
team to develop a customized solution that could help to identify 
military families and military personnel, ensuring that friends and 
family members could send critical military-related counseling 
information to them in times of need.
    Today, BSF, Facebook, and the Department of Veterans Affairs are 
proud to announce that the Facebook military crisis content is live. As 
a result, friends and families with concerns about veterans, active 
duty service members and military family members will receive specific 
information about crisis services for our nation's military including 
The Veterans Crisis Line. The Veterans Crisis line connects veterans in 
crisis and their families and friends with qualified, caring Department 
of Veterans Affairs responders via phone, online chat or text 
messaging.
    This is just one way to help our nation's military families in 
their time of need. However, we believe that the Facebook platform, 
which is used on a daily basis by so many of our families, will be a 
critical means of helping our military community live long, healthy and 
successful lives after they have sacrificed so much for our safety and 
way of life.
    On February 25th, 2016, in partnership with Blue Star Families and 
USAA, Facebook released the Military Families Online Safety Guide 
designed specifically for their service members and their families. The 
Military Families Online Safety Guide delves into how to utilize 
Facebook's privacy, security, and safety tools to do things such as 
enable additional security features, block someone from seeing what 
veterans post, or report something inappropriate. The guide also 
addresses situations unique to military families, for example, sharing 
seemingly innocuous personal information and how that could 
inadvertently conflict with good security procedures.
    Facebook also proudly supports Blue Star Families (BSF) by 
consistently providing annual sponsorship of BSF's Annual Neighbor 
Celebration in Washington, DC. This April was the 6th anniversary of 
the celebration which honors civilians with awards for helping and 
supporting veterans. The goal of the event is to bridge the gap between 
veteran and civilian communities.
    Lastly, in 2015, Facebook launched a series of Boost Your Business 
events geared towards helping Veteran and Military family-owned and 
operated small businesses learn how to reach new customers and keep 
existing ones through Facebook. Since then, Facebook has reached more 
than 1,000 Veteran and Military family-owned and operated small 
businesses in four states, partnering with more than 65 local and 
national Veteran and Military family-focused business organizations. 
Facebook plans to continue hosting these events through 2016 and 
beyond.

Google

    In the summer of 2013, Google hosted resume writing workshops for 
350+ student veterans in 12 Google offices in partnership with Student 
Veterans of America and Iraq and Afghanistan Veterans of America. In 
November 2013, working collaboratively with the Bob Woodruff 
Foundation, Google welcomed more than 100 injured post-9/11 veterans 
and their loved ones to Google NYC for a tech immersion and mentoring 
day. Finally, VetNet, the Google+ career services platform with the 
Institute for Veterans and Military Families and Hire Heroes USA, has 
helped thousands of veterans prepare for civilian careers.
    VetNet, or the Google Veterans Network was launched in 2012. VetNet 
is an internal employee resource group and volunteer community that 
strives to make Google a great place to work for employees who have 
served, as well as their families, friends and supporters. Google also 
supports the active duty and military veteran community outside of 
Google through a wide range of transition-related programs and 
partnerships. Their mission is to conduct operations around the world 
to attract, recruit, and retain top veteran talent to Google, provide a 
Google support and learning network, and help solve challenges in the 
veterans community with Google products.
    Different aspects of The Google Veterans Network are making 
available apps like Helpouts by Google and Tour Builder and sharing 
stories from veteran-owned businesses via the Google Enterprise blog 
and Google+.
    Helpouts by Google allows anyone to give and receive help over live 
video, and Google thinks it can be an effective platform for nonprofit 
and veteran service organizations to connect with veterans and their 
families. Helpouts for veterans are already available, ranging from 
guidance for veteran education benefits to entrepreneurship/business 
planning. Because Helpouts is HIPAA-compliant, providers such as Give 
an Hour can provide secure and confidential mental health care sessions 
online-particularly useful for those veterans who are physically unable 
to travel from their homes.
    Tour Builder is a storytelling tool in beta that enables anyone to 
record memories of their travels in Google Earth. Tour Builder was 
inspired by the accomplishments of military service members around the 
globe. Google hopes it will give veterans an easy way to share their 
journeys with loved ones at home and to preserve the legacy of their 
service for generations to come.
    13.5 percent of the nation's businesses are run by veterans, 
employing a collective 8.2 million people. In recognition of the 
contributions veterans make to the economy, the Google Enterprise blog 
and Google+ page will share stories throughout the week from veteran-
owned business and service organizations that achieved success with the 
help of Google Apps-like RuckPack Combat Nutrition.

LinkedIn

    LinkedIn allows veterans to reach their full potential by 
connecting them with opportunities at a massive scale. LinkedIn offers 
veterans free subscriptions to Lynda.com, an online learning platform 
with over 4,000 businesses, technical and creative courses taught by 
industry experts available anytime and anywhere. To harness the unique 
skillets of veterans, Lynda.com's course offerings include programs on 
personal branding, entrepreneurship, management, and technical skills. 
Lynda.com helps veterans build the skills essential to transition into 
a post-military career, connecting two million veterans with nine 
million companies and five million job opportunities, in addition to 
hosting numerous military and veteran focused groups including the 
Veteran Mentor Network which has over 100,000 members.

Lyft

    On Veterans Day 2015, Lyft teamed up with the White House 
initiative Joining Forces to offer thousands of free rides to homeless 
veterans, administered by local VSO employment counselors. In order to 
accomplish their goal, Lyft worked in tandem with Uber to maximize the 
number of free rides that would be available to veterans.
    According to Colonel Nicole Malachowski, the executive director of 
the Joining Forces Initiative, ``veteran employment has always been a 
focus for Joining Forces,'' however, it is difficult for homeless 
veterans to find transportation to and from work due to limited public 
transportation. Colonel Malachowski spoke for Joining Forces and First 
Lady Michelle Obama when she directly thanked Lyft on Veteran's Day 
2015, ``for stepping up to help address this problem,'' and for being 
``committed to donating free rides to veterans - to be administered by 
the employment counselors who work with them every week.''

Monster

    Monster Worldwide Inc. has been a global online employment solution 
for more than 20 years. Over the years Monster expanded from their 
roots as a ``job board'' to a global provider of a full array of job 
seeking, career management, recruitment and talent management products 
and services.
    In 2004 Monster Worldwide and Military.com joined forces with a 
shared commitment to provide resources and information to connect 
service members, veterans, and their families to all the benefits 
earned in service and to help them make the most of their military 
careers, transition to the civilian workforce and improve their lives.
    In addition to providing resources to help service members and 
veterans navigate the policies and procedures for claiming their 
benefits, Monster and Military.com developed a collection of veteran 
transition tools and products for both the private sector and the 
federal government.
    In 2007 Military.com worked with the Department of Defense to 
create TurboTAP, the first online transition program. TurboTAP enabled 
active duty service members and members of the National Guard and 
Reserve to create Individual Transition Plans (ITP). Members were able 
to create, download, and print customized guides to help them plan and 
track their transition progress; equipping them to achieve their 
civilian career goals. Military.com continues to support this important 
time through the Transition Assistance Center.
    Following the advent of the Post-9/11 GI Bill in 2008, Military.com 
developed the first online GI Bill calculator designed to help veterans 
determine which of the several GI Bill programs would best fit their 
personal needs.
    In 2011 Military.com and Monster's Government Solutions division, 
developed the military skills translator and job matching tool for the 
Department of Veterans Affairs 'VA4Vets' website.
    The patent pending tool goes beyond simply helping service members 
and veterans translate their military occupation into civilian terms 
and match them to current employment opportunities; it also helps them 
to see new employment and career possibilities beyond their current 
expectations.
    The military skills translator/job matcher is currently being used 
by more than 50 corporations, veteran service organizations, and trade 
associations to help connect veterans and employers. Of course all of 
the tools and products on Military.com are free for veterans, service 
members, and their families.
    This year Monster increased their efforts to help veteran job 
seekers by overhauling the entire job seeking process on Military.com 
and developing new tools and products to help veterans ``find better.''
    As a result of the renewed efforts, Military.com will soon launch 
the Military.com/Citibank transition app, the first of many new veteran 
employment focused apps to be released in the future. Military.com 
recently launch an updated and enhanced Military Skills Translator/Job 
Matcher. Future enhancements will include the addition of an academic 
factor, which will enable veterans to find jobs that match both their 
military and academic skills and experience.
    Monster will continue to demonstrate their commitment to making a 
positive impact on the lives of those who serve or have served, by 
continuing to develop new ways to connect employers and veterans.
    The Veteran Employment Center is a all-encompassing job resource 
that helps employers to hire Veterans with Military.com integrated 
product offerings. Employers can diversify their recruitment strategy 
and connect with millions of Veterans, Transitioning Service members 
and Military Spouses on one single Veteran Hiring platform.
    Transition by Military.com keeps active duty service members and 
reserve and guard personnel on point during their journey from military 
to civilian life. The app provides a 360-degree view of transition 
including financial, benefits and job-related content, pushing timely 
information 18 months prior to separation and for 6 months after. The 
app personalizes your transition plan tracking your progress while you 
complete the interactive checklist items which include required 
Department of Defense out-processing paperwork.
    The Veteran Employer Resource Center offers comprehensive 
information to reach job seekers with Military experience and helps you 
to be on the forefront of veteran recruiting. It is a one stop shop for 
all employers to learn about the benefits of hiring veterans and about 
how to recruit and retain them. This will be launched in June 2016.

Pandora

    Pandora is working with a few organizations on future 
collaborations to get more military veterans in their applicant pool. 
This includes reaching out to ROTC chapters for Pandora's summer 
RoadCrew internship program for college juniors. Tim Westergren, the 
Founder and CEO of Pandora, feels strongly about building outreach 
efforts to military veterans, which is part of their overarching 
diversity strategy.
    In March 2016, Tim Westergren gave a speech to 1,200 freshman 
cadets and faculty as part of the West Point Military Academy's Castle 
Lecture series. His speech focused on commitment, technology, 
entrepreneurialism, and innovation.
    On May 6th, 2016, Pandora participated in a recruitment event at 
the Service Academy Career Center (SACC) in Washington, DC, the only 
job fair exclusively for service academy alumni.
    Currently, Pandora is collaborating with Musicians on Call, an 
organization founded in 1999 that brings music to hospital patients, on 
future visits to Veterans Affairs facilities.

Salesforce

    Over the next 5 years, over one million service men and women are 
expected to transition out of the military (at a rate of approximately 
200k each year), and many will experience difficulties in readjusting 
to civilian life. One major hurdle that veterans face is finding 
meaningful careers. Many have a great foundational skills from the 
military, but need additional training to find the best available 
opportunities in the civilian workforce.
    Salesforce believes that the thousands of U.S. veterans 
transitioning from the military each month are some of the hardest 
working and dedicated individuals. They come with solid teamwork, 
communication, critical-thinking, and problem solving skills.
    Due to the large volume of veterans entering the workforce and 
Saleforce's commitment to helping them adjust to civilian life, 
Salesforce launched their new and improved global program, VetForce 
Community in March 2016.
    VetForce Community is a holistic learning experience that addresses 
critical gaps in the veteran's journey. Its mission is to transform the 
lives of veterans and military spouses by free training, certification 
and connections to employment opportunities in the Salesforce 
ecosystem, which currently has thousands of customers and partners. 
VetForce prepares veterans for a civilian career in IT, consulting, or 
sales. Salesforce recognizes the skills, experience, and aptitude that 
veterans gained as service members, and combine those with business 
skills and Salesforce training to get veterans ready for the civilian 
workforce.
    Salesforce has incorporated ideas and input from many veterans 
across all military branches to build out this program. As a result, 
Salesforce offers complete and supported learning journeys that teach 
veterans the skills needed for a career as a Salesforce Administrator, 
Business Analyst, Developer, or Sales Rep.
    The redesigned platform now includes career-specific learning 
journeys, immersion in Trailhead, business skills training, 
partnerships with the Developer and MVP communities, a veteran coaching 
program, robust job prep resources and employer engagement with 
Salesforce's customers and partners.
    The process is self-paced and on-demand making VetForce easy for 
veterans to use. Users begin by learning about Salesforce careers and 
selecting a career to start their learning journey. Salesforce goes 
beyond the basic job description and provides detailed career overviews 
for Salesforce positions. Salesforce also notes relevant skills and 
experience from the military that are relevant for each job role. After 
choosing a career, the learning journeys include six phases.
    The first phase is the orientation phase where veterans learn about 
day-in-the-life for their chosen career and get connected to support 
resources for their journey, like online collaboration groups and 
regional user groups.
    In phase 2, Veterans dive into Salesforce training on Trailhead, 
where they complete a series of self-paced training modules that teach 
them the fundamentals and gives them hands-on experience setting up and 
configuring their own Salesforce application.
    Phase 3 gives Veterans the opportunity to brush up on their 
Business Skills. VetForce covers the essentials like business email 
communication, running effective meetings, great presentations, 
whiteboarding, and time management.
    In phase 4, veterans can take their training to the next level by 
attending optional in-person training cohorts.
    Phase 5 is all about getting Salesforce certified. Veterans are 
guided through the certification process, reviewing study guides, 
certification prep blog articles, and receiving their free voucher for 
the certification exam. Getting certified boosts their career and 
enables veterans to contribute even more to an organization's success. 
Salesforce Certification is the ultimate credential from Salesforce 
that demonstrates that they have the skills and confidence to take full 
advantage of Salesforce.
    Lastly, in phase 6, veterans update their LinkedIn Profiles, create 
their resumes, and review the Job Search Kit that includes sample 
interview questions, interview prep tips, and questions to ask during 
the interview.
    Currently, Salesforce has over 2,500 members in the VetForce 
Community that include currently serving, veterans, military spouses, 
VSOs, employer partners, and coaches. VetForce Community members have 
earned over 1,000 badges on Trailhead and over 150 certifications. With 
Trailhead integrated in the VetForce Community, veterans are now able 
to take thousands of hours of free Salesforce training to jumpstart 
their tech industry careers.
    Due to this success, VetForce's FY17 goal is to train, certify and 
employ 5,000 veterans and military spouses and Salesforce hopes to 
achieve 40,000 in 2020.
    In order for this goal to be reached, Salesforce aims to include 
the entire Salesforce ecosystem, and is working with their Customers 
and Partners to provide employment opportunities for veterans and 
spouses who complete their training and certification. Salesforce also 
actively engages one of their greatest assets - the Admin, Developer, 
and Salesforce MVP communities, to ensure veterans are supported 
throughout their learning journey.

Zenefits

    Part and parcel to the Zenefits platform is helping small business 
owners start, manage, and grow their business; and provide quality 
benefits normally reserved for employees at large employers. One of 
those benefits is the brokerage of insurance (health and life). As 
Zenefits grew the company, they added traditional experienced brokers 
to their team and trained new brokers to enter the industry. An 
industry that has seen far fewer new entrants to it's community over 
the last several years.
    In order to train these new brokers, Zenefits developed Zenefits' 
Brokers University. As they began to think through their Veteran's 
pledge Zenefits made the decision to begin providing training for 
Veterans to become brokers.
    Zenefits is currently working with the White House, the Governor's 
office in Arizona and others to make spots available in our Broker's 
University this summer to Veterans in the Phoenix area. Zenefits will 
train these individuals to become successful brokers in Arizona and 
pass their licensing exam. Some will work for Zenefits, some will go 
work for Zenefits' competitors, but all will have the opportunity to 
train in a field that is now more needed than ever.

                                 
                                 Engine
    May 17, 2016
    The Honorable Brad Wenstrup
    Chairman
    Committee on Veterans' Affairs
    Subcommittee on Economic Opportunity
    U.S. House of Representatives
    Washington, DC 20515

    The Honorable Mark Takano
    Ranking Member
    Committee on Veterans' Affairs
    Subcommittee on Economic Opportunity
    U.S. House of Representatives
    Washington, DC 20515

    Dear Chairman Wenstrup and Ranking Member Takano:

    Engine commends you for holding today's hearing entitled ``Veterans 
in Tech: Innovative Careers for All Generations of Veterans.'' Engine 
is a non-profit organization that supports high-growth, high-tech 
startups through research, advocacy, and policy analysis. We work to 
foster and promote forward-looking government policies that support 
today's high-tech economy.
    One of the most consistent challenges for startups at every stage 
is finding employees with the necessary skills to build innovative 
products and services. We know this from conversations with startup 
leaders around the country and we have seen this in the numbers: the 
Department of Labor expects STEM fields to yield more than 1.3 million 
job openings by 2022. Even today, there are over half a million 
unfilled jobs in information technology across all sectors of the 
economy.
    Meanwhile, over 2.6 million post 9/11 veterans are transitioning 
back to civilian life, returning to communities around the country in 
search of new careers. Because of their flexibility and low barriers to 
entry, emerging on-demand services, such as Uber, have already proven 
to provide good, part-time jobs for veterans in search of more 
permanent work. We hope these opportunities represent pathways to the 
tech industry, where veterans can either build on the skills they 
already have or acquire new skills they can deploy. Trained as leaders 
and decision makers in complex situations, many veterans have the 
fundamentals to quickly learn or adapt problem-solving skills as an 
entrepreneur launching a startup or an engineer at a fast-paced tech 
company.
    Unfortunately, many veterans interested in entering the tech 
industry as full-time employees-or even as entrepreneurs-are not 
receiving sufficient training and exposure to opportunities in this 
sector. We have heard directly from veterans that the Transition 
Assistance Program gravely lacks up-to-date information about the vast 
job opportunities in the tech sector and that the program does not 
adequately provide veterans with the resources and training necessary 
to pursue those jobs.
    The Engine team has had the fortune of working with a number of 
exemplary non-profit organizations around the country that are stepping 
in to help veterans access these opportunities. One such veteran-
founded organization, VetTechTrek, exposes veterans to tech jobs at 
growing startups and is building a video platform to prepare them for 
landing jobs at these companies. Another group, Vets in Tech, runs 
eight national chapters that coordinate training programs with major 
technology firms including SalesForce and Microsoft. The COMMIT 
Foundation funds technical training programs not covered by veterans' 
GI benefits, which raises another issue Congress should address. Each 
of these organizations plays an important role in connecting and 
training veterans for roles in technology.
    Even once veterans identify the relevant training they need to 
pursue jobs in the tech industry, their GI benefits may not help them 
cover the costs. Federal funding guidelines make it particularly 
difficult for veterans to access non-traditional, skill-based education 
programs that are relatively new to the education landscape, but are 
already producing success stories. Training programs like coding 
bootcamps teach students the technical skills needed for transitioning 
to work in fast-growing tech fields, and at a faster pace and lower 
cost than traditional two- and four-year colleges and universities. Not 
only can these programs provide skills that bridge military experience 
with roles in the private sector, but they also provide the tech 
vocabulary and network that enable veterans to land desirable jobs.
    As Congress considers how it can best support veterans in this new, 
tech-driven economy, Engine hopes lawmakers explore two issues, in 
particular. First, lawmakers should investigate how the Department of 
Veterans Affairs can modernize the Transition Assistance Program to 
better prepare veterans for this country's most in-demand jobs. 
Further, Congress should explore how to integrate emerging third-party 
educational opportunities, such as coding bootcamps, into existing 
educational offerings covered by GI benefits. The VA's Accelerated 
Learning Program pilot is an important first step towards evaluating 
such programs and determining the extent to which the government should 
facilitate veterans' participation.
    We already know that our nation's veterans possess the skills and 
the drive necessary to become successful in the tech industry. Last 
year, we profiled seven former servicemen and women who transitioned to 
the tech industry as employees at major tech companies and as founders 
of their own tech startups. Together, these men and women showcase the 
enormous potential within the veteran community to serve and lead in 
our country's most rapidly growing job sector. Yet to accelerate these 
successes and enable more veterans to enter into this industry, we must 
do more.

    Sincerely,

    Evan Engstrom
    Executive Director, Engine

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
